APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit
(June 4, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Amended Judgment in the United
States District Court, Central District
of California
(January 4, 2018) . . . . . . . . . . . . App. 23
Appendix C Order re Defendants’ Motion for
Award of Final Costs and Attorney’s
Fees in the United States District
Court, Central District of California
(December 5, 2017) . . . . . . . . . . . App. 26
Appendix D Judgment in the United States
District Court, Central District of
California
(May 26, 2017). . . . . . . . . . . . . . . App. 68
Appendix E Order re Defendants’ Motion for
Summary Judgment; Plaintiff’s
Motion for Summary Adjudication as
to Liability for Copyright
Infringement, Willfulness, and
Infringing Revenues; Plaintiff’s
Motion for Reconsideration of Ruling
on the Parties’ Motions for Summary
Judgment in the United States
District Court, Central District of
California
(May 12, 2017). . . . . . . . . . . . . . . App. 70

ii
Appendix F Response of the Register of Copyrights
to Request Pursuant to 17 U.S.C.
§ 411(b)(2) in the United States
District Court, Central District of
California
(April 28, 2017) . . . . . . . . . . . . . . App. 99
Appendix G Request to the Register of Copyrights
Pursuant to 17 U.S.C. § 411(b)(2) in
the United States District Court,
Central District of California
(March 24, 2017) . . . . . . . . . . . . App. 109
Appendix H Order re Defendants’ Motion for
Summary Judgment; Plaintiff’s
Motion for Summary Adjudication as
to Liability for Copyright
Infringement, Willfulness, and
Infringing Revenues in the United
States District Court, Central District
of California
(March 24, 2017) . . . . . . . . . . . . App. 112
Appendix I Order Denying Petition for Rehearing
and Rehearing En Banc in the United
States Court of Appeals for the Ninth
Circuit
(July 30, 2019). . . . . . . . . . . . . . App. 142
Appendix J Mandate in the United States Court of
Appeals for the Ninth Circuit
(August 7, 2019) . . . . . . . . . . . . App. 144

App. 1

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-55818
D.C. No. 2:16-cv-00339-JAK-FFM
[Filed June 4, 2019]
___________________________________
GOLD VALUE INTERNATIONAL
TEXTILE, INC., DBA Fiesta Fabric,
a California Corporation,
Plaintiff-Appellant,

)
)
)
)
)
v.
)
)
SANCTUARY CLOTHING, LLC,
)
a California Limited Liability
)
Company; AMAZON.COM, INC.,
)
a Washington Corporation;
)
MACY’S, INC., an Ohio Corporation;
)
NORDSTROM, INC., a Washington
)
Corporation; BLOOMINGDALES, INC.,
)
a New York Corporation;
)
DILLARDS, INC., an Arkansas
)
Corporation; ZAPPOS IP, INC.,
)
)
a Nevada Corporation; DOES, 1–10,
Defendants-Appellees.
)
___________________________________ )

App. 2
OPINION
Appeal from the United States District Court
for the Central District of California
John A. Kronstadt, District Judge, Presiding
Argued and Submitted December 6, 2018
Pasadena, California
Before: Diarmuid F. O’Scannlain and Sandra S.
Ikuta, Circuit Judges, and George Caram Steeh III,*
District Judge.
Opinion by Judge Steeh
SUMMARY**
Copyright
The panel affirmed the district court’s summary
judgment and award of attorney’s fees in favor of the
defendants in an action under the Copyright Act.
Gold Value International Textile, Inc., doing
business as Fiesta Fabric, alleged that defendant
Sanctuary Clothing, LLC, copied its fabric design,
which was used to manufacture a blouse that was sold
by defendant retail outlets. Sanctuary filed a
counterclaim, seeking invalidation of Fiesta’s

*

The Honorable George Caram Steeh III, United States District
Judge for the Eastern District of Michigan, sitting by designation.
**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 3
copyright. Concluding that Fiesta’s copyright
registration was invalid, the district court granted
summary judgment in favor of defendants.
The panel affirmed the district court’s conclusion
that Fiesta’s copyright registration was invalid under
17 U.S.C. § 411(b) because Fiesta knowingly included
inaccurate information in its copyright application that
would have caused the Copyright Office to deny
registration. Specifically, Fiesta knowingly included
previously published designs in its application to
register an unpublished collection. In addition, the
Register of Copyrights indicated that it would not
publish a single group of published and unpublished
works. Because a valid registration is a precondition to
bringing an action for infringement, the panel affirmed
the district court’s grant of summary judgment in favor
of defendants.
The panel further held that defendants were
prevailing parties, and the district court did not abuse
its discretion in awarding attorney’s fees under 17
U.S.C. § 505 even though defendants prevailed on a
technical defense.
COUNSEL
Scott Alan Burroughs (argued) and Trevor W. Barrett,
Doniger/Burroughs, Venice, California, for PlaintiffAppellant.
Jessica Strom Rutherford (argued), Alexander Malbin,
and Edmund J. Ferdinand III, Ferdinand IP LLC, New
York, New York, for Defendants-Appellees.

App. 4
OPINION
STEEH, District Judge:
Gold Value International Textile, Inc., doing
business as Fiesta Fabric (“Fiesta”), brought this action
for copyright infringement against Sanctuary Clothing,
LLC (“Sanctuary”), and several clothing retailers.
Fiesta alleges that Sanctuary copied its fabric design,
which was used to manufacture a blouse that was sold
by the defendant retail outlets. Sanctuary filed a
counterclaim, seeking invalidation of Fiesta’s
copyright. Concluding that Fiesta’s copyright
registration was invalid, the district court granted
summary judgment in favor of Defendants. The district
court determined invalidity pursuant to 17 U.S.C.
§ 411(b), finding that Fiesta knowingly included
inaccurate information in its copyright application that
would have caused the Copyright Office to deny
registration. Recognizing that a valid copyright
registration is a prerequisite to bringing suit, the
district court dismissed Fiesta’s complaint. The court
also awarded attorney’s fees and costs to Defendants.
Fiesta appeals the final judgment as of right. Finding
no error in the conclusions of the district court, we
affirm.
BACKGROUND
Fiesta is a California corporation that creates
textile designs and sells fabric to its customers, who
use the fabric to make clothing. Sanctuary is a clothing
manufacturer; the remaining defendants are retailers
who purchased garments from Sanctuary and sold
them to customers. Fiesta alleges that it owns the

App. 5
copyright in a two-dimensional textile design entitled
1461-43 (“1461 Design”). According to Fiesta,
Sanctuary infringed its copyright by creating and
selling clothing to retailers featuring a design
substantially similar to the 1461 Design.
Effective October 24, 2013, Fiesta registered the
1461 Design under Copyright Registration No. VAu 1151-509 (“‘509 Registration”), as part of its “Grp. 029Spring/Summer 2014” collection. In addition to the
1461 Design, the ‘509 Registration comprises thirtythree fabric designs. In the copyright application,
Fiesta’s president, Morris Ajnassian, certified that
none of the works in the collection had been published
as of October 23, 2013. The fabric designs were
registered as an unpublished collection.
Prior to the registration, Fiesta sold samples of
fabric bearing the 1461 Design to “a limited group of
existing and potential customers for the limited
purpose of securing full production contracts for
hundreds or thousands of yards of fabric.” Between
March 12, 2013, and October 24, 2013, Fiesta sold
about 190 yards of fabric featuring the 1461 Design.
Ajnassian testified that he knew that sample fabric
bearing the 1461 Design had been sold prior to
approving the copyright registration application, but
that he did not consider sampling to be publication.
PROCEDURAL HISTORY
In ruling on the parties’ cross-motions for summary
judgment, the district court determined that because
the 1461 Design had been sold prior to registration, it
had been published and, therefore, Fiesta’s

App. 6
identification of the 1461 Design as unpublished in the
copyright application was inaccurate. Because Fiesta
knew that the fabric had previously been sold, the
court concluded, it included inaccurate information in
its copyright application with knowledge that it was
inaccurate. The court deferred a final ruling on
whether Fiesta’s copyright registration was invalid,
and submitted an inquiry to the Copyright Office
regarding whether the Register of Copyrights would
have rejected Fiesta’s application if it had known of the
inaccuracy. Specifically, the district court inquired as
follows:
Would the Register of Copyrights have
rejected Plaintiff’s Registration No. VAu
1-151-509 for 2-dimensional artwork
(“Grp.029-Spring/Summer 2014,” filed
October 24, 2013) with respect to Design
1461? Thus, would it have done so if, at
the time of the application, the Register of
Copyrights had known that, although
Plaintiff had characterized the work as an
unpublished collection that included the
1461 Design, Plaintiff previously had
published the 1461 Design when it sold to
its customers fabric samples that used the
1461 Design, without limiting further
distribution or sale by those customers?
The Register of Copyrights responded that “had the
Office been aware that the 1461 Design had been
previously published, the Office would have refused
registration of that work using the unpublished
collections option because the work was registered as

App. 7
unpublished when in fact it had been published.” As
the district court explained, “[t]he Register noted that
if it is made aware of an error at the time of
application, the general practice of the Copyright Office
is to correspond with the applicant and give an
opportunity to correct the error” within forty-five days.
The Register’s response was “premised on the fact that
the error identified in the Court’s question was not
timely corrected.”
In light of the Register’s response, the district court
granted Defendants’ motion for summary judgment,
declaring Fiesta’s copyright registration to be invalid
as to the 1461 Design and dismissing Fiesta’s claims
with prejudice. Defendants moved for an award of
attorney’s fees and costs, which the district court
granted in the amount of $121,423.01.
In the meantime, Fiesta submitted a separate
copyright registration application for the 1461 Design,
certifying that it was first published on March 12,
2013, approximately six months prior to the date of the
original ‘509 Registration. The Copyright Office issued
Registration No. VA 2-006-252 (the “‘252
Registration”). Citing Fiesta’s lack of diligence, the
district court denied Fiesta leave to amend its
complaint to add the ‘252 Registration as the basis for
its claims. Fiesta has not appealed this ruling. Rather,
Fiesta filed a second action based upon the ‘252
Registration of the 1461 Design. Gold Value Int’l
Textile, Inc. v. Sanctuary Clothing, LLC, 2:17-cv-03726
(C.D. Cal.). The parties stipulated to a stay of the
second action pending the resolution of this appeal.

App. 8
STANDARD OF REVIEW
The court reviews the district court’s grant of
summary judgment de novo. L.A. Printex Indus., Inc. v.
Aeropostale, Inc., 676 F.3d 841, 846 (9th Cir. 2012).
“Summary judgment is appropriate if, viewing the
evidence in light most favorable to the nonmoving
party, ‘there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.’” Id. (quoting Fed. R. Civ. P. 56(a)).
The court reviews an award of attorney’s fees under
the Copyright Act for an abuse of discretion. Cadkin v.
Loose, 569 F.3d 1142, 1146–47 (9th Cir. 2009). “A
district court abuses its discretion when its decision is
based on an inaccurate view of the law or a clearly
erroneous finding of fact.” Id. at 1147 (citation
omitted).
DISCUSSION
Although copyright registration is “not a condition
of copyright protection,” registration is a precondition
to filing an action for copyright infringement. 17 U.S.C.
§§ 408(a), 411(a); Reed Elsevier, Inc. v. Muchnick, 559
U.S. 154, 157 (2010) (with some exceptions, the
Copyright Act “requires copyright holders to register
their works before suing for copyright infringement”).
A copyright registration certificate “shall constitute
prima facie evidence of the validity of the copyright and
of the facts stated in the certificate.” 17 U.S.C. § 410(c).
The Prioritizing Resources and Organization for
Intellectual Property Act of 2008 (the “PRO IP Act”)
amended the Copyright Act to include a new provision,
17 U.S.C. § 411(b) (2008). Section 411(b) provides that

App. 9
a “certificate of registration satisfies the [registration
requirement of § 411(a)], regardless of whether the
certificate contains any inaccurate information,” unless
(1) “the inaccurate information was included on the
application for copyright registration with knowledge
that it was inaccurate,” and (2) “the inaccuracy of the
information, if known, would have caused the Register
of Copyrights to refuse registration.” 17 U.S.C.
§ 411(b)(1).
Prior to the PRO IP Act, “we have held that
‘inadvertent mistakes on registration certificates do not
invalidate a copyright and thus do not bar infringement
actions, unless the alleged infringer has relied to its
detriment on the mistake, or the claimant intended to
defraud the Copyright Office by making the
misstatement.’” L.A. Printex, 676 F.3d at 853 (quoting
Urantia Found. v. Maaherra, 114 F.3d 955, 963 (9th
Cir. 1997)); see also Unicolors, Inc. v. Urban Outfitters,
Inc., 853 F.3d 980, 991 (9th Cir. 2017) (“Good faith
mistakes in copyright applications do not preclude an
infringement action.”).
A copyright owner may file an application for
supplementary registration “to correct an error in a
copyright registration or to amplify the information
given in a registration.” 17 U.S.C. § 408(d). “The
information contained in a supplementary registration
augments but does not supersede that contained in the
earlier registration.” Id.
The Copyright Act regulations permit a work to be
registered separately, or under certain circumstances,
as part of a group of related works:

App. 10
For the purpose of registration on a single
application and upon payment of a single
registration fee, the following shall be
considered a single work:
(A) In the case of published works: all
copyrightable elements that are otherwise
recognizable as self-contained works, that
are included in a single unit of
publication, and in which the copyright
claimant is the same; and
(B) In the case of unpublished works: all
copyrightable elements that are otherwise
recognizable as self-contained works, and
are combined in a single unpublished
“collection.”
37 C.F.R. § 202.3(b)(4)(i) (2007).1 The Copyright Office
will not accept a group of published and unpublished
works in a single registration, as such a grouping does
not satisfy either (A) or (B) above. Id.; see also L.A.
Printex, 676 F.3d at 853–54. A work is published for
purposes of the Copyright Act when copies are
distributed “to the public by sale or other transfer of
ownership, or by rental, lease, or lending” or offered to
be distributed “to a group of persons for purposes of
further distribution, public performance, or public
display.” 17 U.S.C. § 101.

1

The regulations have been amended, effective March 15, 2019, to
include a new section regarding group registration of unpublished
works. The new regulation provides that “[a]ll the works in the
group must be unpublished.” 37 C.F.R. § 202.4(c)(1) (2019).

App. 11
I.

Inaccurate
Registration

Information

in

Copyright

Fiesta argues that the district court erred in finding
that it included inaccurate information in its
application for copyright registration. The 1461 Design
was registered as part of an unpublished collection.
Fiesta suggests that it made a mistake by failing to
include a publication date in its application, which
could be corrected by a supplemental registration.
Fiesta’s error was to include published works in an
unpublished collection, however. Adding a publication
date to the application would not correct this error,
because the Copyright Office would not have registered
a published design as part of an unpublished collection.
See L.A. Printex, 676 F.3d at 853–54 (characterizing
the inclusion of two previously published designs in a
work registered as an unpublished collection as an
“error”).
Fiesta next argues that the ‘509 Registration is not
inaccurate, because the entire collection of works had
never been published together as a collection, and
therefore the collection was properly registered as
unpublished. Fiesta provides no authority for the
proposition that published and unpublished works may
be registered as a group, which is contrary to the
regulations, guidance from the Copyright Office, and
caselaw. See, e.g., id.; 37 C.F.R. § 202.3(b)(4)(i)(B)
(effective July 6, 2007) (permitting registration of
“unpublished works . . . combined in a single
unpublished ‘collection.’”); U.S. Copyright Office,
Compendium of U.S. Copyright Office Practices § 607
(2d ed. 1984) (“Compendium II”) (“For the purpose of

App. 12
registration on a single application and payment of a
single fee, a number of unpublished works may be
registered as a single work.”).2
Fiesta also contends that its ‘509 Registration was
accurate because any publication of the 1461 Design
was a “limited” distribution for promotional purposes
and did not constitute legal publication under the
limited publication doctrine. See Acad. of Motion
Picture Arts & Scis. v. Creative House Promotions, Inc.,
944 F.2d 1446, 1452 (9th Cir. 1991) (“[A] publication is
‘limited’ . . . when tangible copies of the work are
distributed both (1) to a ‘definitely selected group,’ and
(2) for a limited purpose, without the right of further
reproduction, distribution or sale.”). In its second
copyright application, however, Fiesta certified that the
date of first publication of the 1461 Design was March
12, 2013, when Fiesta began selling sample fabric
bearing the 1461 Design to its customers. Thus, Fiesta
admitted that this allegedly limited distribution
constituted legal publication, and that the publication
occurred prior to the registration of the 1461 Design as
part of an unpublished collection.

2

The third edition of the Compendium was issued in 2014. U.S.
Copyright Office, Compendium of U.S. Copyright Office Practices
(3d ed. 2014) (“Compendium III”). Although the Register would
have applied Compendium II at the time of Fiesta’s ‘509
Registration, the Register cited Compendium III in her response
to the district court’s inquiry, noting that “the relevant practices
have not materially changed.” See generally Richlin v. MetroGoldwyn-Mayer Pictures, Inc., 531 F.3d 962, 973 (9th Cir. 2008)
(Copyright Register’s interpretation of copyright law entitled to
deference).

App. 13
Moreover, Fiesta cannot demonstrate that it
distributed the fabric “for a limited purpose, without
the right of further reproduction, distribution or sale.”
Id. at 1452. Although Fiesta’s invoices included a
copyright notice that prohibited copying, reproducing,
or altering the fabric designs, the notice language did
not prohibit customers from distributing or reselling
the fabric.3
It is undisputed that Fiesta sold 190 yards of fabric
bearing the 1461 Design before registering its
copyright. Because the 1461 Design was distributed “to
the public by sale or other transfer of ownership,” it
was published within the meaning of the Copyright
Act. 17 U.S.C. § 101; see also Compendium II § 905.02
(publication includes distribution to “persons who are
under no implied or express restriction with respect to
disclosure of the work’s contents”). The district court
did not err in finding that the 1461 Design had been
published prior to registration and that, therefore,
Fiesta’s ‘509 Registration application contained an
inaccuracy.

3

Because we find that Fiesta does not satisfy the requirements of
the limited publication doctrine, we need not decide whether this
doctrine remains viable under the Copyright Act of 1976. The
concept of limited publication was read into the Copyright Act of
1909 “to mitigate the harsh forfeiture effects of an improper
publication” without a copyright notice. Am. Vitagraph, Inc. v.
Levy, 659 F.2d 1023, 1027 (9th Cir. 1981). The 1976 Act, which
applies here, does not require publication with a copyright notice,
undermining the basis for the limited publication doctrine. See 17
U.S.C. § 401(a).

App. 14
II.

Knowledge of the Inaccuracy

An inaccuracy in the application does not
necessarily invalidate a copyright registration,
however. See 17 U.S.C. § 411(b)(1). Rather, the
inaccurate information must have been included in the
application for copyright registration “with knowledge
that it was inaccurate” and “the inaccuracy of the
information, if known, would have caused the Register
of Copyrights to refuse registration.” Id.; see also L.A.
Printex, 676 F.3d at 852–53. The district court found
that Fiesta knew the information in the application
was inaccurate because it knew that it had previously
sold fabric bearing the 1461 Design to customers when
it applied for the ‘509 Registration. Fiesta argues that
it did not know that the sale of samples to its
customers constituted publication as a matter of law
under the Copyright Act, and therefore, it did not have
the requisite knowledge or fraudulent intent. The
district court characterized Fiesta’s position as one of
“ignorance of the law,” which is “no excuse,” and
determined that a showing of fraudulent intent is not
required to invalidate a copyright registration under
§ 411(b).
Both parties rely upon L.A. Printex. In that case,
the plaintiff registered a group of five textile designs as
a single unpublished collection entitled Small Flower
Group A. After bringing its infringement action, L.A.
Printex became aware that its copyright registration
for Small Flower Group A contained an error: two of
the five designs—but not the design at issue—had been
published before the date of registration. L.A. Printex
filed an application for supplementary registration to

App. 15
remove the two previously published designs and the
Copyright Office issued a certificate of supplementary
registration for Small Flower Group A. The defendant
argued that L.A. Printex’s registration for the design at
issue was invalid. Rejecting this argument, we stated
that “[t]he record, when viewed in the light most
favorable to L.A. Printex, does not demonstrate that
L.A. Printex knowingly included previously published
designs in its application for copyright registration
such that the error was other than an inadvertent
mistake, or that L.A. Printex intended to defraud the
Copyright Office.” Id. at 854.
Unlike the plaintiff in L.A. Printex, Fiesta
knowingly included previously published designs in its
application to register an unpublished collection. Fiesta
was aware that it had sold yards of fabric to customers
prior to registering the 1461 Design as part of an
unpublished collection. Although Fiesta asserts that it
did not believe that such sales constituted publication
as a matter of law, Fiesta provides no reasonable basis
for this belief. Fiesta’s lack of authority or plausible
explanation for its position distinguishes this case from
others in which a claimant’s good faith or inadvertent
mistake did not constitute a knowing inaccuracy. See
Unicolors, 853 F.3d at 990–91 (holding claimant’s
inadvertent exclusion of source artwork from
application did not invalidate registration because the
copyright application form is a “minefield for applicants
attempting to properly register a derivative work” and
it was a “good faith mistake”); Archie MD, Inc. v.
Elsevier, Inc., 261 F.Supp.3d 512, 520 (S.D.N.Y. 2017)
(holding claimant had no knowledge of inaccuracy
because whether licensing the work constituted

App. 16
publication was an “unsettled legal question”).
Moreover, “the term ‘knowingly’ does not necessarily
have any reference to a culpable state of mind or to
knowledge of the law. As Justice Jackson correctly
observed, ‘the knowledge requisite to knowing violation
of a statute is factual knowledge as distinguished from
knowledge of the law.’” Bryan v. United States, 524
U.S. 184, 192 (1998) (citation omitted).
Fiesta claims that L.A. Printex requires a showing
of fraud on the part of the claimant in order to
invalidate a copyright registration. L.A. Printex did not
address this issue, however. Although we stated that
there was no evidence that the claimant intended to
defraud the Copyright Office, we did not consider the
issue of whether a showing of fraud is required to
invalidate a registration pursuant to § 411(b). L.A.
Printex, 676 F.3d at 853–54. We hold that Fiesta’s
argument is foreclosed by the plain language of
§ 411(b), which does not require a showing of fraud, but
only that the claimant included inaccurate information
on the application “with knowledge that it was
inaccurate.” 17 U.S.C. § 411(b)(1)(A); see also Lamie v.
United States Tr., 540 U.S. 526, 534 (2004) (“It is well
established that ‘when the statute’s language is plain,
the sole function of the courts—at least where the
disposition required by the text is not absurd—is to
enforce it according to its terms.’” (citation omitted)).4

4

The Eleventh Circuit held in Roberts v. Gordy that a showing of
“intentional or purposeful concealment of relevant information” is
required to render a registration invalid. 877 F.3d 1024, 1029 (11th
Cir. 2017) (citation omitted). The court relied upon its prior
precedent, however, without attention to the plain language of

App. 17
Fiesta was admittedly aware of the facts regarding
its fabric sales; its inclusion of designs that it knew had
been sold, and therefore published, in an unpublished
collection cannot be characterized as an inadvertent or
good faith mistake. Thus, Fiesta included inaccurate
information on its application with knowledge that it
was inaccurate.
III.

Whether the Register of Copyrights Would Refuse
Registration

Pursuant to § 411(b)(1)(B), we next consider
whether the inaccuracy would have caused the Register
of Copyrights to refuse registration. The Register has
indicated that it would not register a single group of
published and unpublished works. Compendium III
§ 1106.1. In L.A. Printex, the (unpublished) design at
issue was registered as part of an unpublished
collection. The claimant mistakenly included two
published designs in the unpublished collection. The
claimant corrected the mistake by filing a
supplemental registration removing the published
designs from the unpublished collection. The Copyright
Office accepted the correction and issued a certificate
of supplementary registration. L.A. Printex, 676 F.3d at
845–46. The Copyright Office’s decision to issue a
certificate of supplementary registration “shows that
the error was not one that ‘if known, would have
caused the Register of Copyrights to refuse

§ 411(b). Section 411(b) does not mention intentional concealment
or fraud, but only that the information was included “with
knowledge that it was inaccurate.” 17 U.S.C. § 411(b)(1).

App. 18
registration.’” Id.
§ 411(b)(1)(B)).

at

854

(quoting

17

U.S.C.

The district court noted that this is the inverse of
the situation faced in L.A. Printex. Fiesta did not
obtain a supplementary registration, but registered the
1461 Design separately. Unlike the copyright owner in
L.A. Printex, Fiesta could not correct its registration by
removing the published designs, including the 1461
Design. Had it done so, the ‘509 Registration would
properly include only unpublished designs, but it could
not serve as a basis for this action, because it would no
longer include the 1461 Design. The district court
determined that because the Copyright Office would
not have registered the 1461 Design as part of an
unpublished collection, § 411(b)(1)(B) was met and the
registration was invalid as to the 1461 Design.
In light of the Register’s response, we agree that
§ 411(b)(1)(B) is satisfied and that the inaccuracy in the
‘509 registration renders it invalid as to the 1461
Design. Fiesta included inaccurate information
regarding the 1461 Design in its application, knew the
information was inaccurate, and the Register would
have refused registration of the collection if it had been
aware of the inaccuracy. The district court properly
declared the ‘509 registration invalid as to the 1461
Design, pursuant to § 411(b).5 Because a valid
5

Relying upon Syntek Semiconductor Co. v. Microchip Tech. Inc.,
307 F.3d 775 (9th Cir. 2002), Fiesta argues that the district court
exceeded its authority by “cancelling” its registration. Fiesta’s
argument is misplaced. In Syntek, the plaintiff sought a
declaration that the defendant’s copyright was invalid because it
did not comply with the applicable regulations by depositing the

App. 19
registration is a precondition to bringing an action for
infringement, we affirm the district court’s grant of
summary judgment in favor of Defendants.
IV.

Attorney’s Fees

Fiesta asserts that the district court erred by
granting attorney’s fees in favor of Defendants.
Exercising its discretion pursuant to 17 U.S.C. § 505,
the district court considered several factors, including
whether Defendants were the prevailing parties, the
degree of success obtained, whether the purposes of the
Copyright Act were furthered, whether an award
against an impecunious party would create a chilling
effect, the plaintiff’s motivation in bringing suit (bad
faith), whether the plaintiff’s legal positions were
frivolous or unreasonable, and the need for
compensation and deterrence. See Fogerty v. Fantasy,
Inc., 510 U.S. 517, 534 (1994) (non-exclusive factors to
consider include “frivolousness, motivation, objective
unreasonableness . . . and the need in particular
circumstances to advance considerations of
compensation and deterrence”); Kirtsaeng v. John
Wiley & Sons, Inc., 136 S.Ct. 1979, 1989 (2016) (in
original source code. We determined that, under the doctrine of
primary jurisdiction, the issue was properly considered first by the
Register of Copyrights, which has the authority to cancel a
registration if the deposit material does not meet certain legal
requirements. Syntek did not address the issue before us—
whether a plaintiff failed to satisfy the registration requirement of
§ 411(a) because an inaccuracy in the application rendered the
registration invalid under § 411(b). The district court did not
“cancel” Fiesta’s registration, but held it to be invalid pursuant to
§ 411(b), which was within the district court’s authority under the
statute.

App. 20
assessing fees, the court should give “substantial
weight” to the objective reasonableness of the opposing
party’s position, “but also taking into account all other
relevant factors”).
“The most important factor in
determining whether to award fees under
the Copyright Act, is whether an award
will further the purposes of the Act.” To
reiterate, the Act’s “primary objective” is
to “encourage the production of original
literary, artistic, and musical expression
for the good of the public.” While no
longer a prerequisite to a fee award, the
“objective unreasonableness (both in the
factual and in the legal components of the
case)” of a losing party’s claim can be a
relevant indicator of whether the Act’s
primary objective is being served by the
litigation.
SOFA Entm’t, Inc. v. Dodger Prods., Inc., 709 F.3d
1273, 1280 (9th Cir. 2013) (citations omitted). “A
successful defense furthers the purposes of the
Copyright Act just as much as a successful
infringement suit does.” Inhale, Inc. v. Starbuzz
Tobacco, Inc., 755 F.3d 1038, 1043 (9th Cir. 2014).
The district court concluded that the following
factors weighed in favor of a fee award: Defendants
were the prevailing parties; the degree of success
obtained (“modest weight”); promoting the purposes of
the Copyright Act by encouraging defendants to
advance meritorious defenses; no chilling effect;
Plaintiff advanced some “objectively unreasonable”

App. 21
legal positions (“weighs slightly in favor of a fee
award”); and compensating Defendants and deterring
Plaintiff from pursuing claims based upon invalid
registrations (“provides some support for a fee award”).
The court found no “direct” evidence of bad faith on the
part of Plaintiff and considered this factor to be
“neutral.”
Although Fiesta does not challenge the amount of
the award, Fiesta argues that the district court abused
its discretion in awarding fees. Fiesta contends that
Defendants should not be considered prevailing parties
because the legal relationship between the parties has
not been materially altered and Fiesta may still seek
relief for infringement of its 1461 Design, based upon
the ‘252 registration. Defendants contend that they
prevailed on the merits because the district court
dismissed Plaintiff’s claims with prejudice, and that
reassertion of those claims is barred by res judicata.
“[A] ‘prevailing party’ is one who has been awarded
some relief by the court. . . . The key inquiry is whether
some court action has created a ‘material alteration of
the legal relationship of the parties.’” Cadkin v. Loose,
569 F.3d 1142, 1148 (9th Cir. 2009) (quoting
Buckhannon Bd. & Care Home, Inc. v. W. Va. Dep’t of
Health & Human Res., 532 U.S. 598, 603–604 (2001)).
The district court dismissed Plaintiff’s claim based
upon the ‘509 registration with prejudice and entered
a final judgment on the merits; accordingly,
Defendants are the prevailing parties. Buckhannon,
532 U.S. at 604.
Fiesta also argues that the district court should not
have awarded fees because Defendants prevailed on a

App. 22
technical defense rather than on the merits. We have
affirmed fees in favor of a defendant who “prevailed on
the merits rather than on a technical defense, such as
the statute of limitations, laches, or the copyright
registration requirements.” Fantasy, Inc. v. Fogerty, 94
F.3d 553, 556 (9th Cir. 1996). We have not held that
prevailing on a technical defense necessarily precludes
an award of fees, however. The district court
acknowledged that Defendants prevailed on a
“technical defense” and found that “this factor provides
modest weight in support” of a fee award. We discern
no basis to disturb this conclusion.
The district court carefully considered and weighed
the various factors relevant to a fee award. Its decision
does not reflect “an inaccurate view of the law” or
“clearly erroneous” findings of fact. Cadkin, 569 F.3d at
1146. Accordingly, the district court did not abuse its
discretion in awarding attorney’s fees to Defendants.
AFFIRMED.

App. 23

APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. 2:16-cv-00339-JAK-FFM
[Filed January 4, 2018]
_________________________________________
GOLD VALUE INTERNATIONAL
TEXTILE, INC., a California Corporation,
individually and doing business as
“FIESTA FABRIC,”

)
)
)
)
)
Plaintiff,
)
)
vs.
)
)
SANCTUARY CLOTHING, LLC, a
)
California Limited Liability Company;
)
AMAZON.COM, INC., a Washington
)
Corporation, BLOOMINGDALE’S, INC.,
)
a New York Corporation;
)
DILLARD’S, INC., an Arkansas
)
Corporation; MACY’S, INC., an Ohio
)
Corporation; NORDSTROM, INC.,
)
a Washington Corporation;
)
ZAPPOS IP, INC., a Nevada Corporation;
)
and DOES 1 through 10,
)
)
Defendants.
)
_________________________________________ )

App. 24
AMENDED JUDGMENT
This Amended Judgment is entered in favor of
Sanctuary Clothing, LLC, Amazon.Com, Inc.,
Bloomingdale’s, Inc., Dillard’s, Inc., Macy’s, Inc.,
Nordstrom, Inc., and Zappos IP, Inc. (collectively
“Defendants”) and against Gold Value International
Textile, Inc. (“Plaintiff”) on all claims brought by
Plaintiff in this action. Plaintiff’s claims are hereby
dismissed with prejudice. Plaintiff shall recover
nothing against Defendants.
Judgment is entered in favor of Defendant
Sanctuary Clothing, LLC and against Plaintiff on the
counterclaims of Sanctuary Clothing, LLC.
Judgment is entered declaring U.S. Copyright
Registration No. VAu 1-151-509 invalid as to the twodimensional artwork titled 1461-Crochet emb.
Defendants are the prevailing parties in this action
for purposes of 17 U.S.C. § 505 and are entitled to an
award of costs pursuant to Fed. R. Civ. P. 54(d)(1).
Defendants shall recover from Plaintiff their full
taxable costs of $3,472.31, an award of $111,230.80 in
attorney’s fees, and $6,719.90 in non-taxable costs.
These three awards total $121,423.01.
Plaintiff shall make payment to Defendants of
$121,423.01, pursuant to this Amended Judgment,
within thirty (30) days of its entry; provided, however,
that if Plaintiff timely files an appeal from this
Amended Judgment, Plaintiff’s obligation to remit such
payment shall be stayed during the appellate process

App. 25
pursuant to Fed. R. Civ. P. 62(d) upon the timely
posting of a compliant supersedeas bond.
Post-judgment interest is awarded against Plaintiff
in favor of Defendants in an amount that is to be
calculated from entry of this Amended Judgment at a
rate equal to the weekly average 1-year constant
maturity Treasury yield, as published by the Board of
Governors of the Federal Reserve System, for the
calendar week preceding the date of the judgment, or,
as prescribed by law, computed daily, and compounded
annually.
IT IS SO ORDERED, ADJUDGED AND
DECREED.
Dated: January 3, 2018
/s/John A. Kronstadt
JOHN A. KRONSTADT
UNITED STATES DISTRICT JUDGE

App. 26

APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. LA CV16-00339 JAK (FFMx)
[Filed December 5, 2017]
___________________________________
Gold Value International Textile, Inc. )
)
v.
)
)
Sanctuary Clothing, LLC, et al.
)
___________________________________ )
CIVIL MINUTES – GENERAL
Present: The Honorable JOHN A. KRONSTADT,
UNITED STATES DISTRICT JUDGE
Andrea Keifer
Deputy Clerk

Not Reported
Court Reporter / Recorder

Attorneys Present for Plaintiffs: Not Present
Attorneys Present for Defendants: Not Present
Proceedings: (IN CHAMBERS) ORDER RE
DEFENDANTS’ MOTION FOR
AWARD OF FULL COSTS AND
ATTORNEY’S FEES (DKT. 141)

App. 27
I.

Introduction

Gold Value International Textile, Inc. d/b/a Fiesta
Fabric (“Plaintiff” or “Fiesta”) brought this action for
copyright infringement against Sanctuary Clothing
LLC (“Sanctuary”), Amazon.com, Inc., Bloomingdale’s,
Inc., Dillard’s, Inc., Macy’s, Inc., Nordstrom, Inc. and
Zappos IP, Inc. (collectively, “Defendants”). On March
14, 2016, Sanctuary brought a counterclaim seeking
the invalidation of Plaintiff’s copyright. Dkt. 37.
On November 18, 2016, Defendants filed a Motion for
Summary Judgment (“Defendants’ Motion for
Summary Judgment”) as to all claims in the Complaint
and the counterclaim. Dkt. 57. On February 17, 2017,
Plaintiff filed a Motion for Summary Judgment
(“Plaintiff’s Motion for Summary Judgment”). Dkt. 72.
On May 12, 2017, an order issued that granted
Defendants’ Motion for Summary Judgment and denied
Plaintiff’s Motion for Summary Judgment (“Summary
Judgment Order” (Dkt. 130)). On May 26, 2017, a
corresponding judgment was entered in favor of
Defendants and against Plaintiff. Dkt. 134.
On June 9, 2017, Defendants filed a Motion for Award
of Full Costs and Attorney’s Fees (“Motion”). Dkts. 1411, 148. Plaintiff opposed the Motion (Dkt. 169), and
Defendants replied. Dkt. 170. On September 25, 2017
a hearing on the Motion was held and it was taken
under submission. Dkt. 174. For the reasons stated in
this Order, the Motion is GRANTED IN PART.
II.

Factual Background

The factual background of this action is detailed in
prior Orders. Dkts. 115, 130. Those discussions are

App. 28
incorporated by this reference. A brief summary follows
to provide the context for the matters addressed in this
Order.
A. The Parties
Plaintiff is a California corporation that creates
artwork for use on fabrics. It sells these fabrics to its
customers, who use them to manufacture garments
that are sold to retailers. Dkt. 1 ¶ 4; Declaration of
Morris Ajnassian (“Ajnassian Decl.”), Dkt. 60-1 ¶ 2.
Sanctuary is a California limited liability company that
manufactures garments.
B. The Copyright Registrations
The Complaint alleges that Plaintiff owns the copyright
in a two-dimensional textile design titled “1461-43”
(“1461 Design”). Dkt. 1 ¶¶ 15-16. This design was
allegedly registered with the Copyright Office. Id. ¶ 17.
The Complaint alleges that, without receiving
authorization from the Plaintiff, Sanctuary created,
sold, manufactured, caused to be manufactured and
distributed garments to retailers that used fabric with
designs that are identical, or substantially similar, to
the 1461 Design. Id. ¶¶ 19-20.
The ‘509 Registration has an effective date of October
24, 2013. Declaration of Jessica S. Rutherford
(“Rutherford Decl.”), Ex. A, Dkt. 57-2 (“‘509
Registration”). Defendants’ Statement of Undisputed
Facts (“UF”), Dkt. 60-7 ¶ 7. The ‘509 Registration
includes 34 works, which include the 1461 Design.
Rutherford Decl., Ex. A, Dkt. 57-2. In the copyright
application that resulted in this registration, Plaintiff’s
president, Morris Ajnassian, certified that none of the

App. 29
works in the collection had been published as of
October 23, 2013. UF ¶ 7.
On June 9, 2016, the Copyright Office issued to
Plaintiff Copyright Registration No. VA 2-006-252
(“‘252 Registration”) for a single work titled “1461.”
Rutherford Decl., Ex. C, Dkt. 57-4 (‘252 Registration).
The ‘252 Registration states that the “Date of 1st
Publication” is “March 12, 2013.” Id. The ‘252
Registration does not state that it is a supplement to
an earlier registration. Id.
C. Procedural History
On March 24, 2017, an Order issued that deferred a
final determination of the two motions for summary
judgment pending a response from the Register of
Copyrights to an inquiry made by the Court. That
inquiry was whether the Copyright Office would have
refused registration of the copyright at issue had it
known that Plaintiff had published the 1461 Design
prior to submitting the application. Dkt. 115. The same
day, the Court submitted this issue to the Register of
Copyrights. Dkt. 116. On April 28, 2017, the Copyright
Office responded. Dkt. 122. Its response stated that
“had the Office been aware that the 1461 Design had
been previously published, the Office would have
refused registration of that work using the unpublished
collections option because the work was registered as
unpublished when in fact it had been published.” Dkt.
122-1 at 4.
After the Summary Judgment Order was issued (Dkt.
130) on May 12, 2017, Defendants lodged a proposed
judgment. Dkt. 131. On May 23, 2017, Plaintiff

App. 30
objected to the proposed judgment. Plaintiff argued
that Defendants cannot recover costs and attorney’s
fees because the dismissal of an action for the absence
of a valid copyright registration is not a judgment or
determination on the merits. Dkt. 132. Defendants
replied on May 25, 2017. Dkt. 133. On May 26, 2017,
judgment was entered in favor of Defendants and
against Plaintiff on all claims brought by Plaintiff. It
provided that the dismissal of those claims was with
prejudice. Dkt. 134. The judgment also applied to
Defendants’ counterclaim, i.e., in favor of Defendants
and against Plaintiff. The judgment declared the ‘509
Registration invalid as to the 1461 Design and provides
that Defendants are entitled to an award of costs
pursuant to Fed. R. Civ. P. 54(d)(1).
On June 7, 2017, Plaintiff filed a notice that it had filed
an appeal from the judgment entered in this action.
Dkt. 135.
III.

Analysis
A. Legal Standards

Section 505 of the Copyright Act provides that “[i]n any
civil action under this title, the court in its discretion
may allow the recovery of full costs by or against any
party other than the United States or an officer thereof.
Except as otherwise provided by this title, the court
may also award a reasonable attorney’s fee to the
prevailing party as part of the costs.” 17 U.S.C. § 505.
Under this statute, attorney’s fees may be awarded to
the party who prevails, whether that is the party who
asserted the copyright claims or opposed them.
Kirtsaeng v. John Wiley & Sons, Inc., 136 S. Ct. 1979,

App. 31
1985 (2016). Whether to award attorney’s fees is within
the discretion of the district court:
Prevailing plaintiffs and prevailing defendants
are to be treated alike, but attorney’s fees are to
be awarded to prevailing parties only as a
matter of the court’s discretion. There is no
precise rule or formula for making these
determinations, but instead equitable discretion
should be exercised in light of the considerations
we have identified.
Fogerty v. Fantasy, Inc., 510 U.S. 517, 534 (1994)
(“Fogerty I”) (internal quotation marks omitted). In
exercising discretion, courts must make a
“particularized, case-by-case assessment.” Kirtsaeng,
136 S. Ct. at 1985.
Several factors should be considered in making the
discretionary determination. See Fogerty I, 510 U.S. at
534; Kirtsaeng, 136 S. Ct. at 1985. They include:
(i) “[t]he primary objective of the Copyright Act is to
encourage the production of original literary, artistic,
and musical expression for the good of the public,”
(Fogerty I, 510 U.S. at 524); (ii) both defendants and
plaintiffs may hold copyrights, and may “run the gamut
from corporate behemoths to starving artists” (id. at
524-27); (iii) the need to encourage “defendants who
seek to advance a variety of meritorious copyright
defenses . . . to litigate them to the same extent that
plaintiffs are encouraged to litigate meritorious claims
of infringement” (id. at 527); and (iv) “a successful
defense of a copyright infringement action may further
the policies of the Copyright Act every bit as much as

App. 32
a successful prosecution of an infringement claim by
the holder of a copyright.” Id.
The Ninth Circuit has explained that, in applying these
factors, it is appropriate to consider: (i) the degree of
success obtained by the moving party; (ii) the purposes
of the Copyright Act; and (iii) whether an award of
attorney’s fees would have a chilling effect that is too
great or would impose an inequitable burden on an
impecunious plaintiff, (collectively, the “Fogerty
Factors”). Ets-Hokin v. Skyy Spirits, Inc., 323 F.3d 763,
766 (9th Cir. 2003). Fogerty I also acknowledged that it
is appropriate to consider the following nonexclusive
factors (the “Lieb Factors”)1 when evaluating a motion
for an award of fees: (i) frivolousness; (ii) motivation;
(iii) objective unreasonableness as to both the factual
and the legal elements of the case; and (iv) the need in
particular circumstances to advance considerations of
compensation and deterrence. Fogerty I, 510 U.S. at
534 n.19.
Fogerty I also stated that these factors “may be used to
guide courts’ discretion, so long as such factors are
faithful to the purposes of the Copyright Act and are
applied to prevailing plaintiffs and defendants in an
evenhanded manner.” Id. This “means that courts
should begin their consideration of attorney’s fees in a
copyright action with an evenly balanced scale, without
regard to whether the plaintiff or defendant prevails,
and thereafter determine entitlement without
weighting the scales in advance one way or the other.”
Fantasy, Inc. v. Fogerty, 94 F.3d 553, 560 (9th Cir.
1

Lieb v. Topstone Indus., Inc., 788 F.2d 151, 156 (1986).

App. 33
1996) (“Fogerty II”). “Within this framework, district
courts are given wide latitude” to award or deny
attorney’s fees under the Copyright Act, even when a
party acted reasonably or in good faith. Entm’t
Research Grp., Inc. v. Genesis Creative Grp., Inc., 122
F.3d 1211, 1229 (9th Cir. 1997).2
B. Whether an Award of Attorney’s Fees and Costs
is Warranted
1. Prevailing Party
“[A] ‘prevailing party’ is one who has been awarded
some relief by the court. The key inquiry is whether
some court action has created a material alteration of
the legal relationship of the parties.” Cadkin v. Loose,
569 F.3d 1142, 1148-49 (9th Cir. 2009) (internal
citation and quotation marks omitted). A court action
materially alters “the legal relationship of the parties”
when it “deprive[s the losing party] of the ability to
seek relief in federal court” under the Copyright Act
against the party that is seeking a fee award. Id. at
1150 (defendants were not “prevailing parties” under
section 505 because they had been dismissed
voluntarily and without prejudice and “remain[ed]
subject to the risk” that the plaintiffs could refile the
copyright claims). Thus, a “defendant is a prevailing
2

Although the cases that have discussed § 505 primarily use the
terms “attorney’s fees” or “fees,” the discretionary standard
established in Fogerty I also applies to an award of costs. See
Perfect 10, Inc. v. CCBill LLC, 488 F.3d 1102, 1120 (9th Cir. 2007)
(“The district court reasonably found the evidence regarding
Perfect 10’s motivation to be equivocal, and did not abuse its
discretion in weighing the interests of compensation and
deterrence and denying costs and attorney’s fees to defendants.”)

App. 34
party following dismissal of a claim if the plaintiff is
judicially precluded from refiling the claim against the
defendant in federal court.” Id.; cf. Tavory v. NTP, Inc.,
297 Fed. Appx. 986, 989-90 (Fed. Cir. 2008) (dismissal
of copyright infringement claim on the ground that the
registration was invalid materially altered the legal
relationship between the parties because “[b]y finding
the deposit copy of that work to be an invalid
reconstruction, the court essentially decided that
[Plaintiff] cannot ever succeed in a copyright
infringement claim against [Defendant] based on the
work represented in that invalid copy”).
Defendants assert they are “prevailing parties” under
these standards. They argue that the Summary
Judgment Order constitutes a material alteration of
the relevant legal relationship. Thus, they claim that it
bars Plaintiff from reasserting claims of infringement
of the 1461 Design against them based on the ‘509
Registration. Dkt. 148. Plaintiff responds that
Defendants are not “prevailing parties” under § 505
because they prevailed only on a technical defense, not
a substantive one on the merits of the claimed
infringement. Dkt. 169.
The judgment entered in this action dismissed all of
Plaintiff’s claims against Defendants with prejudice.
Dkt. 134. Therefore, under its terms Plaintiff is
“judicially precluded from refiling” any copyright
infringement claims against Defendants based on the
‘509 Registration of the 1461 Design. Cadkin, 569 F.3d
at 1150. This reflects a material alteration of the legal
relationship between Plaintiff and Defendants as to the
copyright claims. Therefore, Defendants are the

App. 35
“prevailing parties” under § 505. There is no
requirement that a prevailing defendant have shown
no actual infringement. Indeed, such a rule would be
inconsistent with the Fogerty Factors, one of which
concerns the degree and nature of success.
2. Fogerty Factors
a) Degree of Success Obtained
“This factor weighs more in favor of a party who
prevailed on the merits, rather than on a technical
defense.” DuckHole Inc. v. NBCUniversal Media LLC,
2013 WL 5797204, at *2 (C.D. Cal. Oct. 25, 2013).
Technical defenses include “statute of limitations,
laches, or copyright registration requirements.” VMG
Salsoul, LLC v. Ciccone, 2014 WL 12585798, at *2
(C.D. Cal. Aug. 28, 2014) (quoting Fogerty II, 94 F.3d at
556); cf. Wolf v. Travolta, 2016 WL 1676427, at *4 (C.D.
Cal. Apr. 25, 2016) (degree of success factor did not
support an award of attorney’s fees where the
prevailing party prevailed on summary judgment
“based only upon the statute of limitations”). Where a
defendant has prevailed on a technical defense, courts
have considered whether the defendant remains
subject to future claims by the plaintiff or whether the
plaintiff’s claims were dismissed with prejudice. See,
e.g., Epikhin v. Game Insight N.A., 2016 WL 1258690,
at *4-5 (N.D. Cal. Mar. 31, 2016) (degree of success
factor was neutral where the defendants prevailed on
a technical defense rather than on the merits and the
plaintiff’s claims were dismissed without prejudice).
Defendants argue that their success was “total and
unequivocal.” In support of this position they rely on

App. 36
the terms of the judgment in their favor on all of
Plaintiff’s claims, the dismissal of all of Plaintiff’s
claims with prejudice, the judgment in their favor on
the counterclaim and the declaration that the ‘509
Registration is invalid as to the 1461 Design. Dkt. 148.
Plaintiff replies that Defendants’ success was based
only on a technical issue -- the mistake Plaintiff made
in the copyright registration process. Dkt. 169.
Defendants prevailed on the issue of the invalidity of
the ‘509 Registration. Dkt. 130. This was a technical
defense. Epikhin, 2016 WL 1258690, at *4. As noted,
such a defense that arises from the rules that apply to
the registration process is not immaterial. It is
important that parties who seek the benefits of
copyright registration have proceeded in accordance
with those rules to ensure that the process is fair and
effective. That is confirmed by the position expressed
by the Copyright Office in response to the inquiry made
by the Court, i.e., it would not have approved the
registration had the prior publication been disclosed.
Here, the relevant rule concerns the requirements for
registering a collection as a single unpublished work. It
is also significant that Plaintiff’s claims were dismissed
with prejudice. See Minden Pictures, Inc. v. John Wiley
& Sons, Inc., 2014 WL 1724478, at *6 (N.D. Cal. Apr.
29, 2014) (defendant’s degree of success “not
insubstantial” where summary judgment granted that
precluded plaintiff from “assert[ing] similar claims
against [the defendant] in any federal court based on
the underlying assignment or agency agreements at
issue”).

App. 37
Under these standards, given the technical defense
that was presented, this factor provides modest weight
in support an award of fees and costs. “However, this
[finding] must be viewed together with the other
Fogerty factors and does not alone call for an award [or
denial of an award] under the Copyright Act.” Design
Data Corp. v. Unigate Enter., Inc., 2014 WL 5513541,
at *3 (N.D. Cal. Oct. 31, 2014) (citing Halicki Films,
LLC v. Sanderson Sales & Mktg., 547 F.3d 1213, 1230
(9th Cir. 2008); Brod v. Gen. Pub. Grp., Inc., 32 F.
App’x 231, 235-36 (9th Cir. 2002)).
b) Purposes of the Copyright Act
“The most important factor in determining whether to
award fees under the Copyright Act, is whether an
award will further the purposes of the Act.” Mattel, Inc.
v. MGA Entm’t, Inc., 705 F.3d 1108, 1111 (9th Cir.
2013). In making this determination, “the question is
whether a successful [claim or] defense of the action
furthered the purposes of the Act, not whether a fee
award would do so.” Mattel, Inc. v. Walking Mountain
Prods., 353 F.3d 792, 816 (9th Cir. 2003) (emphasis in
original). A “successful defense of a copyright
infringement action may further the policies of the
Copyright Act every bit as much as a successful
prosecution of an infringement claim by the holder of a
copyright.” Fogerty I, 510 U.S. at 527.
The goals of the Copyright Act, which include
“enriching the general public through access to creative
works,” are served by “striking a balance between two
subsidiary aims: encouraging and rewarding authors’
creations while also enabling others to build on that
work.” Kirtsaeng, 136 S. Ct. at 1986. The “demarcation”

App. 38
of copyright law is an important part of this
assessment:
Because copyright law ultimately serves the
purpose of enriching the general public through
access to creative works, it is peculiarly
important that the law’s boundaries be
demarcated as clearly as possible. Thus, a
defendant seeking to advance meritorious
copyright defenses should be encouraged to
litigate them to the same extent that plaintiffs
are encouraged to litigate meritorious
infringement claims.
Fogerty I, 510 U.S. at 517-18.
Defendants argue that a fee award will further a goal
of the Copyright Act, i.e., to encourage litigation of
meritorious defenses. Defendants contend it “will
encourage defendants with viable registrationinvalidity defenses to litigate, and thereby promote
compliance with governing regulations, encourage
registration of only valid claims, and deter lawsuits
predicated on invalid registrations.” Dkt. 170.
Defendants also contend that their successful defense
in this action advances the important policy of
demarcating the boundaries of copyright law “by
furthering the understanding of the requirements for
registration of a collection of unpublished works and
the meaning of ‘publication’ under 17 U.S.C. § 101.”
Plaintiff responds that the goal of the Copyright Act to
encourage the production of original literary, artistic
and musical expression for the public good, will be
undermined by a fee award. Dkt. 169.

App. 39
This factor weighs in favor of a fee award. It will
promote and further the policies of the Copyright Act
by encouraging defendants “to advance meritorious
copyright defenses.” Fogerty I, 510 U.S. at 518. It will
also encourage those applying for registration, and its
corresponding benefits, to comply with the governing
rules and regulations. There is limited force to
Plaintiff’s argument that an award of fees would
undermine an important objective of the Copyright Act,
i.e, to encourage persons “to create new artwork” and
“to enforce their rights in their artwork.” These
important goals can be achieved when applicants follow
the rules. Indeed, as noted above, that is an important
part of establishing and maintaining a fair and
consistent registration process. A fee award may
encourage Plaintiff, as well as others, to comply with
the rules for registration in the future. For these
reasons, this factor weighs in favor of a fee award.
c) Chilling Effect of Attorney’s Fees
This factor presents the related question of “whether
the chilling effect of attorney’s fees may be too great or
impose an inequitable burden on an impecunious
[party].” Ets-Hokin, 323 F.3d at 766. An award of
attorney’s fees imposes an inequitable burden if “in
light of the losing party’s financial condition, it would
be inequitable to award attorney’s fees.” Epikhin, 2016
WL 1258690, at *8.
Plaintiff argues that a fee award will “chill the
enforcement of valid copyrights.” Dkt. 169. However,
Plaintiff does not contend that it lacks resources to pay
an award. Nor does it offer any evidence about its
financial condition. Further, Plaintiff has not presented

App. 40
persuasive evidence that it will be deterred from
seeking to enforce valid copyrights in the future or from
seeking new registrations. Plaintiff has brought more
than 50 copyright-infringement actions since 2014;
approximately half of those were filed in 2016. Given
this evidence of a willingness to seek to enforce its
claimed rights, there is no showing that an award of
fees will cause it to change its approach. Moreover,
Plaintiff’s argument regarding the chilling effect of a
fee award is not persuasive. Fogerty I made clear that
“defendants who seek to advance a variety of
meritorious copyright defenses should be encouraged to
litigate them to the same extent that plaintiffs are
encouraged to litigate meritorious claims of
infringement.” 510 U.S. at 527. Therefore, this factor
weighs in favor of awarding fees.
3. Lieb Factors
a) Motivation
“[A] court’s discretion may be influenced by the
plaintiff’s culpability in bringing or pursuing the
action, but blameworthiness is not a prerequisite to
awarding fees to a prevailing [party].” Fantasy II, 94
F.3d at 558. Where a case involves difficult questions
of law, or “substantial questions of first impression,” it
weighs against a finding that arguments were made in
bad faith. Lifshitz v. Walter Drake & Sons, Inc., 806
F.2d 1426, 1435 (9th Cir. 1986). “Courts generally hold
that a finding of bad faith can be based on not only the
actions that led to the lawsuit, but also the conduct of
the litigation.” Wild v. NBC Universal, 2011 WL
12877031, at *2 (C.D. Cal. July 18, 2011) (internal
alterations and quotation marks omitted) (motivation

App. 41
factor neutral where the prevailing defendants “failed
to introduce evidence that Plaintiff was seeking to
settle the lawsuit, or that [Plaintiff] exhibited bad faith
conduct during the litigation”).
Defendants argue that Plaintiff brought the claims in
bad faith. Dkt. 148. In support of this position they
contend that Plaintiff commenced this action despite its
“knowing misstatement of its publication made in the
application underlying the ‘509 Registration” and the
“early indications” Plaintiff received as to the invalidity
of the ‘509 Registration. Defendants argue that
Plaintiff’s “clear motivation” in bringing this action was
to “drive up Defendants’ costs and use that as leverage
to extract an undeserved settlement.” Plaintiff
responds that its only motivation in bringing this case
was “to protect its artwork and the attendant
copyrights.” Dkt. 169. Plaintiff also contends that it did
not have any improper motivation because it was
unaware of its registration error until it was discovered
during the course of this litigation.
Plaintiff was aware of the validity issue early in this
action. Defendants included it as an affirmative
defense in their Answer, which was filed on March 14,
2016. Dkt. 35 (“Plaintiff’s claims are barred because
Plaintiff lacks ownership of a valid U.S. Copyright
Registration covering the allegedly-infringed work for
noncompliance with regulations prescribing conditions
for the registration of copyright, 37 C.F.R. § 202.3.”).
Defendants also raised the issue of the validity of the
‘509 Registration in the Rule 26(f) Joint Report, which
was filed on May 4, 2016. Dkt. 40. There, Defendants
stated that they would file a motion for summary

App. 42
judgment based on this defense. Id. It is also
significant that Plaintiff obtained Copyright
Registration No. VA 2-006-252 (“‘252 Registration”) for
a single work titled “1461” on June 9, 2016. Rutherford
Decl., Ex. C, Dkt. 57-4. The ‘252 Registration states
that the “Date of 1st Publication” is “March 12, 2013.”
Id.
The foregoing supports the claim that Plaintiff
continued to pursue its copyright infringement claims
after it learned of the validity issues that were raised
just three months after the action was filed. In what
may have been a response to this issue, Plaintiff
obtained a new registration for the 1461 Design on
June 9, 2016, but continued to prosecute this action in
reliance on the ‘509 Registration. However, there is no
direct evidence of any bad faith by the Plaintiff. The
ultimate disposition of the validity issue was not
certain when the action was commenced and pursued.
Instead, the litigation that proceeded was consistent
with the goals identified earlier in which each side to a
dispute may properly assert its position. Accordingly,
this factor is neutral.
b) Frivolousness and Factual and Legal
Unreasonableness
Although separate factors, these issues may be
considered together. Each requires an assessment
whether the positions taken by the parties lacked legal
and factual bases. Wild, 2011 WL 12877031, at *2.
“[T]he mere fact that [a party] lost cannot establish
[its] objective unreasonability.” Seltzer v. Green Day,
Inc., 725 F.3d 1170, 1181 (9th Cir. 2013). However,
where a party “should have known from the outset that

App. 43
its chances of success in th[e] case were slim to none,”
its decision to litigate is considered unreasonable.
SOFA Entm’t, Inc. v. Dodger Prods., Inc., 709 F.3d
1273, 1280 (9th Cir. 2013). “[A] frivolous claim under
the Copyright Act is one that, in either the factual or
legal assertions, is clearly baseless, involving fantastic
or delusional scenarios. Put another way, a case is
deemed frivolous only when the result is obvious or the
arguments are wholly without merit.” Perfect 10, Inc.
v. Giganews, Inc., 2015 WL 1746484, at *8 (C.D. Cal.
Mar. 24, 2015) (internal citations, alteration and
quotation marks omitted).
In a recent decision, the Supreme Court held that,
when assessing whether to award fees under § 505, a
district court “should give substantial weight to the
objective reasonableness of the losing party’s position.”
Kirtsaeng, 136 S. Ct. at 1983. “No matter which side
wins a case, the court must assess whether the other
side’s position was (un)reasonable.” Id. at 1988. The
objective reasonableness factor is not, however,
dispositive. Id. (“All of that said, objective
reasonableness can only be an important factor in
assessing fee applications—not the controlling one.”).
Defendants renew the argument that Plaintiff’s
conduct in this litigation was objectively unreasonable.
Dkt. 148. Specifically, Defendants contend that
Plaintiff’s reliance on the ‘509 Registration was
unreasonable because Plaintiff’s sales reports and
invoices showed that sales of fabric using the 1461
Design were made prior to the effective date of the ‘509
Registration.

App. 44
Plaintiff responds that its position regarding the
technical error in its registration application was
reasonable. It claims that there is no binding precedent
that establishes the “technical invalidity” defense. It
also argues that the response of the Copyright Office to
the Court’s inquiry indicates that the technical error
would not necessarily preclude registration of
Plaintiff’s artwork. Dkt. 169; See Ex. A to Response of
the Register of Copyrights to Request Pursuant to 17
U.S.C. § 411(b)(2), Dkt. 122-1. This is not a persuasive
assessment of the response of the Copyright Office. The
response states that, had the Register of Copyrights
been “aware that the 1461 Design had been previously
published, the [Copyright] Office would have refused
registration of that work using the unpublished
collections option because the work was registered as
unpublished when in fact it had been published.” Dkt.
122-1 at 4. The only limitation on this statement is
that, had the Copyright Office learned of the error at
the time of application, it would have afforded Plaintiff
an opportunity to correct the error within 45 days.
There is some support for Defendants’ claim that
Plaintiff took unreasonable positions as to the claimed
validity of the ‘509 Registration. In connection with the
motions for summary judgment, Plaintiff advanced the
following arguments: (i) any error in the ‘509
Registration was inadvertent and the applicable
standard requires that Plaintiff have engaged in an
attempt to defraud the Copyright Office with respect to
any prior publication of the 1461 Design; (ii) Plaintiff
did not believe selling samples of the 1461 Design to
several customers constituted general “publication” for
purposes of the Copyright Act; (iii) there was no error

App. 45
in the ‘509 Registration because the Copyright Act only
requires that a collection as a whole was not previously
published; and (iv) Plaintiff’s subsequent ‘252
Registration for the 1461 Design is a sufficient basis for
its copyright infringement claims.
As noted in the prior Order deferring a ruling on the
motions for summary judgment, “L.A. Printex made
clear that a showing of fraud is not required when the
inaccurate information was knowingly included on the
application, as opposed to being an inadvertent
mistake.” Dkt. 115 at 11. Plaintiff included inaccurate
information in its application for the ‘509 Registration
as to the date of publication of the 1461 Design. The
witness produced by Plaintiff pursuant to Fed. R. Civ.
P. 30(b)(6) testified that Plaintiff knew that it had
already sold samples of the 1461 Design when it
applied for the ‘509 Registration. Rutherford Decl., Ex.
F., Dkt. 65-2 (Rule 30(b)(6) Depo. 157:15-158:3).
Further, Plaintiff’s principal declared that “[b]efore the
[1461] Design was registered with the Copyright Office,
[Plaintiff] provided samples of fabric bearing the design
to a limited group of existing and potential customers
for the limited purpose of securing full production
contracts for hundreds or thousands of yards of fabric.”
Ajnassian Decl., Dkt. 60-1 ¶ 5. That Plaintiff was not
aware that the sale of samples to its customers
constituted “publication” under the Copyright Act is
not determinative. In general, knowingly “refers only
to one’s knowledge of the facts that make his conduct
unlawful, not to one’s knowledge of the law.” RSM, Inc.
v. Herbert, 466 F.3d 316, 320 (4th Cir. 2006) (emphasis
in original).

App. 46
It is also material that Plaintiff was represented by
counsel in this action. This reduces further the weight
of an argument based on ignorance of the law when the
validity issue was litigated. Plaintiff argued that the
prior publication was limited because the 1461 Design
was distributed “without the right of further
reproduction, distribution or sale.” However, as noted
in the prior Order deferring a ruling on the motions for
summary judgment, it would be unreasonable to
interpret this warning as unique to the samples and
one that supports a claim that Plaintiff did not regard
this as a publication. Thus, this same warning
language was used in all of Plaintiff’s invoices, not just
those identified as relating to the sale of samples. Dkt.
115 at 7; see, e.g., Ajnassian Decl., Ex. 5, Dkt. 75-2
(invoice for sale of fabric bearing the 1461 Design).
Also unconvincing is Plaintiff’s argument that there
was no error in the ‘509 Registration because the
Copyright Act only requires that a collection as a whole
was not previously published. Indeed, Plaintiff cited no
authority for this proposition and the Court found
none. Finally, Plaintiff’s position that the subsequent
‘252 Registration for the 1461 Design could form a
sufficient, independent basis for its copyright
infringement claims is not convincing. As noted in the
Summary Judgment Order, the ‘252 Registration was
not identified in the Complaint as a copyright at issue.
Therefore, it could not support Plaintiff’s claims absent
the filing of an amended complaint. Dkt. 130. Under
the Scheduling Order that was in place, Plaintiff had
more than two weeks to request leave to amend after it
obtained the ‘252 Registration on June 9, 2016.
However, Plaintiff first requested such leave as part of

App. 47
its untimely opposition to Defendants’ Motion for
Summary Judgment. Dkt. 60. This was approximately
one year after the Complaint was filed, and the request
was denied as untimely given the status of the
summary judgment process. Dkt. 130.
For the foregoing reasons, several of the positions
advanced by Plaintiff in this action were not
persuasive. It is not clear, however, that Plaintiff
“should have known from the outset that its chances of
success” in raising all of these arguments “were slim to
none.” SOFA Entm’t, Inc., 709 F.3d at 1280. It was
objectively unreasonable for Plaintiff to argue that
Defendants were required to show that Plaintiff
intended to defraud the Copyright Office in order to
invalidate the ‘509 Registration. It was also objectively
unreasonable for Plaintiff to argue that there was no
error in the ‘509 Registration because the Copyright
Act only requires that a collection as a whole was not
previously published. There is less certainty as to the
lack of merit of some of the other arguments, including
whether the prior publication was limited and not
general. On balance, however, this factor weighs
slightly in favor of a fee award.
c) Compensation and Deterrence
When evaluating a motion to recover fees under § 505,
courts should also consider whether there is a “need . . .
to advance considerations of compensation and
deterrence.” Kirtsaeng, 136 S. Ct. at 1986 (quoting
Fogerty I, 510 U.S. at 534). “Deterring non-meritorious
lawsuits against defendants seen as having ‘deep
pockets’ and compensating parties that must defend
themselves against meritless claims are both laudible

App. 48
ends.” Scott v. Meyer, 2010 WL 2569286, at *3 (C.D.
Cal. June 21, 2010). This factor supports an award of
fees if the losing party should be deterred from
asserting the claims (or defenses) that the losing party
asserted in the case in which fees are sought. Epikhin,
2016 WL 1258690, at *8. The deterrence factor overlaps
with those concerning motivation, frivolousness, and
objective unreasonableness. King v. IM Global, 2017
WL 2620695, at *3 (C.D. Cal. Jan. 25, 2017) (“Having
previously determined that Plaintiff’s claim was
neither frivolous nor objectively unreasonable, the
Court cannot conclude that Plaintiff should have been
deterred from pursuing it.”); Design Data Corp. v.
Unigate Enter., Inc., 2014 WL 5513541, at *2 (N.D. Cal.
Oct. 31, 2014) (“There is value in deterring frivolous
lawsuits . . . .”).
The need for compensation is mitigated where a
prevailing defendant has “ample incentive” to litigate
a meritorious defense without the added incentive that
the possibility of recovering attorney’s fees provides.
Epikhin, 2016 WL 1258690, at *8 (compensation factor
did not weigh in favor of an award of attorney’s fees
where the allegedly infringing product, a mobile
application, had been downloaded more than one
million times).
Defendants contend that an award of fees will
incentivize future defendants to pursue meritorious
defenses rather than settling to avoid litigation costs.
Dkt. 148. Defendants also argue that awarding
attorney’s fees will deter Plaintiff and copyright
holders in general from “pursuing claims based on
invalid copyright registrations—and continuing to do so

App. 49
after the invalidity of asserted registrations becomes
apparent.” Id. This will provide an incentive to Plaintiff
to investigate its claims more carefully in the future
before commencing litigation. In response, Plaintiff
argues that awarding fees would impede the goal of the
Copyright Act to encourage private enforcement of
rights. Dkt. 169.
On balance, this factor provides some support for a fee
award. This conclusion is based on the same analysis
presented earlier with respect to motivation,
frivolousness and objective unreasonableness.
*

*

*

A consideration of all of the applicable factors shows
that they are sufficient to warrant the exercise of
discretion to award fees.
4. Reasonableness of Requested Attorney’s Fees
a) Legal Standards
In making a fee award under § 505, a district court
must calculate “a reasonable attorney’s fee.”
Traditional Cat Ass’n, Inc. v. Gilbreath, 340 F.3d 829,
833 (9th Cir. 2003). The reasonableness of an attorney’s
fee request is determined by the “lodestar” method:
The “lodestar” is calculated by multiplying the
number of hours the prevailing party reasonably
expended on the litigation by a reasonable
hourly rate. Although in most cases, the lodestar
figure is presumptively a reasonable fee award,
the district court may, if circumstances warrant,

App. 50
adjust the lodestar to account for other factors
which are not subsumed within it.
Camacho v. Bridgeport Fin., Inc., 523 F.3d 973, 978
(9th Cir. 2008) (internal citations and quotation marks
omitted). Courts rely on the “Kerr factors” when
assessing the reasonableness of the lodestar figure.
Morales v. City of San Rafael, 96 F.3d 359, 363 (9th
Cir. 1996). These factors are
(i) the time and labor required, (ii) the novelty
and difficulty of the questions involved, (iii) the
skill requisite to perform the legal service
properly, (iv) the preclusion of other employment
by the attorney due to acceptance of the case,
(v) the customary fee, (vi) whether the fee is
fixed or contingent, (vii) time limitations
imposed by the client or the circumstances,
(viii) the amount involved and the results
obtained, (ix) the experience, reputation, and
ability of the attorneys, (x) the “undesirability”
of the case, (xi) the nature and length of the
professional relationship with the client, and
(xii) awards in similar cases.
Kerr v. Screen Extras Guild, Inc., 526 F.2d 67, 70 (9th
Cir. 1975).
In determining the number of hours reasonably
expended on the litigation, those that are “excessive,
redundant, or otherwise unnecessary” should be
excluded. Welch v. Metro. Life Ins. Co., 480 F.3d 942,
946 (9th Cir. 2007). “Employing multiple attorneys or
firms is not per se unreasonable.” PSM Holding Corp.
v. Nat’l Farm Fin. Corp., 743 F. Supp. 2d 1136, 1157

App. 51
(C.D. Cal. 2010). If, however, “two or more attorneys
have duplicated each other’s work, then the number of
hours submitted should be reduced, since some of the
work was unnecessary and the time claimed would
therefore be unreasonable.” Id. (quoting Williamsburg
Fair Hous. Comm. v. Ross-Rodney Hous. Corp., 599 F.
Supp. 509, 518 (S.D.N.Y. 1984)). Additionally, “hours
that are billed in block-format may be reduced.” Inhale,
Inc. v. Starbuzz Tobacco, Inc., 2015 WL 1470796, at *2
(C.D. Cal. Mar. 31, 2015).
To determine the reasonableness of an attorney’s
hourly rate, it is appropriate to consider evidence as to
the billing rates charged by other counsel for similar
work in the relevant community. Welch, 480 F.3d at
946. “The party seeking fees bears the burden of
documenting the hours expended in the litigation and
must submit evidence supporting those hours and the
rates claimed.” Id. at 945-46. “The Court may make a
small across-the-board reduction, no greater than 10
percent, based on its exercise of discretion and without
a more specific explanation[,]” but “a clear and concise
explanation is required if the reduction is greater than
10 percent.” Inhale, Inc., 2015 WL 1470796, at *2.
b) Defendants’ Requested Fees
Defendants seek to recover all of their costs and
attorney’s fees. In support of their requests,
Defendants submit the declaration of Edmund J.
Ferdinand (“Ferdinand”), the managing partner of
Ferdinand IP, LLC and Ferdinand IP, LLP (“Ferdinand
IP”). Dkt. 149. The attorney’s fees requested total
$210,094.80. This figure is based on the 789.07 hours
recorded and billed by Defendants’ counsel and one

App. 52
paralegal between January 15, 2016 and May 31, 2017.
Declaration of Edmund J. Ferdinand (Ferdinand Decl.)
¶ 8, Dkt. 149. The following table summarizes these
hours and hourly rates by person:
Ferdinand IP
Attorney
Edmund Ferdinand
(Partner)3
Edmund Ferdinand
(Partner)
Jessica Rutherford
(Partner)
Daniel Lacy
(Associate)
Alexander Malbin
(Associate)4
Alexander Malbin
(Associate)
Thea Zimnicki
(Associate)

Hourly Total
Rate
Hours
$400.00
4

Total
$1,600.00

$290.00

81.1

$23,519.00

$290.00

426.55

$123,699.50

$230.00

40.10

$9,223.00

$265.00

10.60

$2,809.00

$230.00

145.20

$33,396.00

$230.00

53.70

$12,351.00

3

Edmund Ferdinand (“Ferdinand”) billed $400 per hour for his
work between January 15, 2016 and February 1, 2016, which is
prior to when Sanctuary’s insurance carrier assumed the defense.
Ferdinand Decl. ¶ 6a. Once it did so on February 1, 2016,
Ferdinand billed at the lower $290 per hour rate set by that
carrier. Id.

4

Alexander Malbin (“Malbin”) also worked on the case before
Sanctuary’s insurance carrier assumed the defense. Id. ¶ 6d.
Between January 15, 2016 and February 1, 2016, Malbin’s time
was billed at a rate of $265 per hour. It was then reduced to $230
per hour.

App. 53
Laura Spanakos
$185.00
5
(Paralegal)
Laura Spanakos
$125.00
(Paralegal)
Totals

.33

$61.05

27.49

$3,436.25

789.07

$210,094.80

Dkt. 159. Defendants also seek to recover certain costs,
which total $36,818.90. Ex. 6 to Ferdinand Decl., Dkt.
141-8. More than $30,000 of these costs are
attributable to work performed by expert witnesses. Id.
Defendants did not rely on these experts in support of
their motion for summary judgment.
c) Positions of the Parties
Defendants contend that the number of hours their
counsel spent working on this case “is reasonable
considering the manner in which Fiesta pursued this
case.” Dkt. 149 ¶ 9. Regarding the rates defense
counsel charged, Defendants note that the majority of
the hours recorded by Ferdinand IP attorneys were
billed at the hourly rates dictated by Sanctuary’s
insurance carrier. Id. ¶ 4. These rates are “significantly
lower than the typical rates of Defendants’ attorneys.”
Id. For example, managing partner of Ferdinand IP
and the lead counsel in this action has a usual hourly
rate of $450-$500, but most of his time was billed at
$290 per hour. Id. ¶ 6a. Defendants also present

5

Laura Spanakos (“Spanakos”) also worked on the case before
Sanctuary’s insurance carrier assumed the defense of this action.
Id. ¶ 6d. Between January 15, 2016 and February 1, 2016, her
time was billed at a rate of $185 per hour, which was then reduced
to $125 per hour.

App. 54
evidence that the other Ferdinand IP attorneys who
worked on this case billed at rates that were less than
their usual ones. Id. ¶ 6b-6f. Further, Defendants have
presented evidence that the rates billed in this case are
below the rates typically charged by attorneys in the
intellectual property field who practice in this District
and have similar levels of experience. Id. ¶ 6a.
Regarding the number of hours billed, Defendants
argue that their counsel spent considerable time
researching issues other than the registration
invalidity defense upon which they ultimately
prevailed. Dkt. 170.
Plaintiff argues that the requested fees are not
reasonable because “there was one technical
registration issue on which the parties disagreed.” Dkt.
169. Further, Plaintiff argues that the hours defense
counsel billed are excessive and redundant because
defense counsel had multiple attorneys work on a
single task. Plaintiff also makes the following
arguments with respect to Defendants’ time charges:
(i) three attorneys spent a total of more than 29 hours
reviewing and investigating the complaint; (ii) two
partners and two associates spent 76 hours “on
additional legal/factual research & investigation”;
(iii) three attorneys spent more than 18 hours drafting
an answer and counterclaim; (iv) two partners and two
associates spent 32.3 hours “on a less-than-full-day
mediation”; (v) three associates, two partners and a
paralegal spent 291.51 hours on discovery “in a case
where each side took one deposition, Plaintiff produced
less than 350 documents, and the Defendants produced
less than 800 documents” and (vi) three associates, two
partners and a paralegal spent 309.75 hours briefing

App. 55
the motions for summary judgment. Plaintiff argues
that in light of these redundancies, the requested fees
should be reduced by 50% to 70% for each of these
tasks. Plaintiff also asks the Court to make an “acrossthe-board percentage cut” of 70% to Defendants’
lodestar calculation. Further, Plaintiff argues that
defense counsel block-billed the majority of its hours. It
argues that the lodestar calculation should be reduced
by at least 30% as a result. Plaintiff does not, however,
identify any block-billed hours in the evidence
Defendants submitted in support of the Motion.
In their reply, Defendants argue that each of the
challenged billing practices is valid. Dkt. 170.
Defendants argue that even though they ultimately
prevailed on a technical invalidity defense, they spent
considerable time “work[ing] towards defeating Fiesta’s
claims on other grounds.”
d) Application
Defendants seek to recover $210,094.80 in attorney’s
fees, a figure that represents the number of hours and
hourly rates summarized in the table that is presented
above. As noted, Defendants also seek to recover costs
of $36,818.90.
Defendants have documented the hours expended in
the litigation and have submitted “evidence supporting
those hours and the rates claimed.” Welch, 480 F.3d at
945-46; see Exs. 1-4 to Ferdinand Decl., Dkts. 157-160.
The requested fees correspond to hours billed over the
course of an 18-month period between when the
Complaint was filed and the Summary Judgment
Order issued. Plaintiff contends that the Defendants’

App. 56
billing reflects “personnel redundanc[ies]” that warrant
reductions. Plaintiff has not provided any specific
examples of when two or more attorneys performed the
same work. Instead, Plaintiff argues that more than
one attorney worked on the same broad tasks, e.g.,
investigating the complaint, performing legal and
factual research, and preparing the briefing on the
competing motions for summary judgment. As noted,
“[e]mploying multiple attorneys or firms is not per se
unreasonable.” PSM Holding Corp., 743 F. Supp. 2d at
1157. Plaintiff also notes that the billing descriptions
are not presented in sufficient detail because they were
block-billed.
Based on a review of these competing positions, the
evidence submitted in support of the fee request, the
pleadings that were presented in this matter, the
presentations made at hearings, and the Court’s
general familiarity with litigation practices in this
District, it is determined that the total fee request is
not reasonable, and warrants a reduction.
The starting point in the analysis is the consideration
of the hourly rates that have been presented. The
hourly rates as adjusted by the carrier were
reasonable. Ferdinand, a named partner of Ferdinand
IP who specializes in intellectual property litigation
and has more than 25 years of litigation experience,
billed 81.1 of his 85.1 hours at the insurer-mandated
rate of $290 per hour. Ferdinand Decl. ¶ 6a.
Rutherford, a partner with 12 years of experience in
the areas of intellectual property protection, licensing
and litigation, also billed at a rate of $290 per hour. Id.
¶ 6b. All three associates who worked on this matter --

App. 57
Lacy, Malbin and Zimnicki -- were fifth-year attorneys
at the time. Collectively, they billed 249.6 hours. All
but 10.6 of these hours were billed at the carrier’s
allowed rate of $230. The 10.6 hours reflected work by
Malbin and were billed at a rate of $265. Id. ¶ 6c-6e.
Finally, 27.49 of the hours billed by the paralegal who
worked on this case were billed at $125 per hour, a rate
set by the carrier; her remaining .33 hour was billed at
her regular hourly rate of $185. Id. ¶ 6f.
The hourly rates, as adjusted by the carrier with
respect to Ferdinand and Malbin, “are commensurate
with the experience of the respective attorneys.” Inhale,
Inc., 2015 WL 1470796, at *3; see id. (“Because Mr.
Patel, has [fourteen years of] specialized experience
and is a registered patent attorney, and his associates
and law clerks have only a few years of experience, the
Court finds that the hourly rates [of $250 for Mr. Patel
and $90 for his associates and law clerks] are
commensurate with the experience of the respective
attorneys.”). Defendants have also provided evidence
that the hourly rates their counsel charged in this case
were significantly lower than their usual rates. Dkt.
149 ¶ 6a-6f. Further, Defendants have presented
evidence that the rates billed in this case are below the
rates typically charged by attorneys in the intellectual
property field with similar levels of experience. Id.
¶ 6a. Plaintiff has not presented any persuasive
evidence that would support a finding that these rates,
as adjusted by the carrier, are unreasonable or
unwarranted. Indeed, the evidence shows that the
hourly rates are below what is often charged by counsel
in this field. That counsel was willing to accept the
adjustment in their rates imposed by the carrier also

App. 58
supports the use of those lower hourly rates in the
present analysis of an appropriate fee award. Whether
defense counsel was willing to accept these lower rates
due to the availability of their time, the nature of the
issues presented, the desire to maintain a positive
relationship with their client and the carrier, or some
other reason, is not material.
The outcome is different with respect to the number of
hours billed. The total of 789.07 hours, which is the
equivalent of about 20 weeks of work, assuming a 40hour workweek, was not reasonable given the nature
and scope of the issues presented in this action as well
as the number of counsel who performed the work.
Defense counsel recorded 309.75 hours for their work
on the two motions for summary judgment. The
Defendants’ Motion for Summary Judgment was filed
on November 18, 2016. That was more than six months
after the filing of the parties’ Rule 26(f) joint report in
which Defendants stated their intention to file such a
motion based on the registration invalidity issue. Both
of these factors warrant a downward adjustment in the
fee request. Had the Defendants’ Motion for Summary
Judgment been filed sooner, it could have been decided
before other time charges were incurred. Moreover,
that five attorneys and one paralegal collectively spent
more than 300 hours on the motions for summary
judgment does not reflect a reasonable or efficient
expenditure of time.
Based on a review of the evidence presented with
respect to the work performed on each of the 13 tasks
summarized in Dkt. 158, as well as the corresponding
detailed time charges set forth in Dkt. 160, certain

App. 59
reductions are deemed appropriate for several reasons:
(i) the amount of time spent on certain tasks, was
greater than necessary, particularly in light of the
straightforward legal and factual issues that were
ultimately case dispositive; (ii) the time spent by
different attorneys overlapped and resulted in some
inefficiency given the need to share information among
defense counsel; (iii) some of the tasks, including
consultation with counsel for other parties and those
who had been counsel in prior litigation with Plaintiffs,
was unnecessary; (iv) had the summary judgment
process and the discovery needed to pursue it been
initiated earlier, less overall time would have been
necessary in the action; and (v) although several of the
positions Plaintiff advanced in this action were
objectively unreasonable, it has not been shown that all
of them were frivolous or objectively unreasonable from
the outset of the litigation.
Based on that analysis, the following reductions are
appropriate:
Task 1 (Pre-Answer Review, Investigation,
Communications)
Attorney Rate

Hours DownReques- ward
ted
Adjustment

Total
Hours

Total
Fee

Malbin
$230
(Associate)

7.1

3

4.1

$943.00

Malbin
$265
(Associate)

6.2

0

6.2 $1,643.00

Lacy
$230
(Associate)

2.7

0

2.7

$621.00

App. 60
Ferdinand
(Partner)

$400

4

4

0

Ferdinand
(Partner)

$290

7

0

7 $2,030.00

Spanakos $185
(Paralegal)

0.33

0

0.33

$61.05

Spanakos $125
(Paralegal)

1.75

0

1.75

$218.75

TOTAL

$0.00

$5,516.80

Task 2 (Drafting Answer, Counterclaim, Notice of
Interested Parties)
Attorney Rate

Hours DownReques- ward
ted
Adjustment

Total
Hours

Total
Fee

Malbin
$230
(Associate)

10.3

5

5.3 $1,219.00

Malbin
$265
(Associate)

4.4

2

2.4

$636.00

Lacy
$230
(Associate)

1.3

1.3

0

$0.00

Ferdinand
(Partner)

2.2

0

2.2

$348.00

TOTAL

$290

$2,493.00

App. 61
Task 3 (Pre-Answer Filings)
Attorney Rate

Hours DownReques- ward
ted
Adjustment

Total
Hours

Total
Fee

Malbin
$230
(Associate)

3

2

1

$230.00

Lacy
$230
(Associate)

1.9

0.9

1

$230.00

TOTAL

$460.00

Task 4 (Post-Answer/Pre-Discovery Review,
Investigation, Communications)
Attorney Rate

Malbin
$230
(Associate)

Hours DownReques- ward
ted
Adjustment

Total
Hours

Total
Fee

0.5

0

0.5

$115.00

Ferdinand
(Partner)

$290

2

0

2

$580.00

Spanakos
(Paralegal)

$125

1.33

0

1.33

$166.25

TOTAL

$861.25

App. 62
Task 5 (Rule 26(f) Report and Rule 16 Conference)
Attorney Rate

Malbin
$230
(Associate)
Ferdinand
(Partner)

$290

Hours DownReques- ward
ted
Adjustment

Total
Hours

Total
Fee

2

0.5

1.5

$345.00

2.3

0.3

2

$580.00

TOTAL

$925.00
Task 6 (Joint Defense Agreement)

Attorney Rate

Malbin
$230
(Associate)
Ferdinand
(Partner)

$290

Hours DownReques- ward
ted
Adjustment

Total
Hours

Total
Fee

1.5

1.5

0

$0.00

2

2

0

$0.00

TOTAL

$0.00
Task 7 (Rule 26(a)(1) Initial Disclosures)

Attorney Rate

Hours DownReques- ward
ted
Adjustment

Total
Hours

Total
Fee

Malbin
$230
(Associate)

1.8

0.3

1.5

$345.00

Ferdinand
(Partner)

1.5

0.5

1

$290.00

TOTAL

$290

$635.00

App. 63
Task 8 (Legal/Factual Research & Investigation)
Attorney Rate

Hours Down- Total Total Fee
Reques- ward Hours
ted
Adjustment

Malbin
$230
(Associate)

40.4

15

25.4 $5,842.00

Lacy
$230
(Associate)

1.1

1.1

0

$0.00

Ferdinand
(Partner)

$290

1.8

0

1.8

$522.00

Rutherford $290
(Partner)

17

10

7 $2,030.00

Zimnicki
$230
(Associate)

15.7

8.7

7 $1,610.00

TOTAL

$10,004.00
Task 9 (Mediation/Settlement)

Attorney Rate

Hours Down- Total Total Fee
Reques- ward Hours
ted
Adjustment

Malbin
$230
(Associate)

1

0

1

$230.00

Lacy
$230
(Associate)

2.9

0

2.9

$667.00

$290

14.9

6.9

8 $2,320.00

Rutherford $290
(Partner)

13.5

5.5

8 $2,320.00

Ferdinand
(Partner)

TOTAL

$5,537.00

App. 64
Task 10 (Protective Order)
Attorney Rate

Hours Down- Total Total Fee
Reques- ward Hours
ted
Adjustment

Malbin
$230
(Associate)

0.7

0

0.7

$161.00

Lacy
$230
(Associate)

1.3

0

1.3

$299.00

Rutherford $290
(Partner)

0.7

0

0.7

$203.00

TOTAL

$663.00
Task 11 (Discovery)

Attorney Rate

Hours Down- Total Total Fee
Reques- ward Hours
ted
Adjustment

Malbin
$230
(Associate)

15.5

8.5

7 $1,610.00

Lacy
$230
(Associate)

22.9

10.9

12 $2,760.00

Ferdinand
(Partner)

$290

27.3

15.3

12 $3,480.00

Rutherford $290
(Partner)

209.15

Ziminicki $230
(Associate)

3

3

Spanakos $125
(Paralegal)

13.66

0

TOTAL

100 109.15 $31,653.50
0

$0.00

13.66 $1,707.50
$41,211.00

App. 65
Task 12 (Dispositive Motion Practice)
Attorney Rate

Hours Down- Total Total Fee
Reques- ward Hours
ted
Adjustment

Malbin
$230
(Associate)

51.7

21.7

Lacy
$230
(Associate)

6

6

$290

20.1

10.1

10 $2,900.00

Rutherford $290
(Partner)

186.2

96.2

90 $26,100.00

Ziminicki $230
(Associate)

35

20

15 $3,450.00

Spanakos $125
(Paralegal)

10.75

0

10.75 $1,343.75

Ferdinand
(Partner)

TOTAL

30 $6,900.00
0

$0.00

$40,693.75

Task 13 (Motion for Attorney’s Fees and Costs)
Attorney Rate

Malbin
$230
(Associate)

Hours Down- Total Total Fee
Reques- ward Hours
ted
Adjustment
9.7

0

9.7 $2,231.00

TOTAL

$2,231.00

GRAND
TOTAL

$111,230.
80

For all of the foregoing reasons, the hourly rates
defense counsel charged in this action are reasonable,
but the number of hours as a whole, and those recorded

App. 66
as to discovery and dispositive motion practice in
particular, were not reasonable. Accordingly, for the
reasons stated above, a downward adjustment from the
lodestar figure is warranted as reflected in the
preceding tables. Therefore, Defendants are awarded
$111,230.80 in attorney’s fees.
C. Requests for an Award of Costs
Under § 505, “the Court in its discretion may award
‘full costs’ to the prevailing party, which includes both
taxable and non-taxable costs.” Pringle v. Adams, 2014
WL 3706826, at *7 (C.D. Cal July 23, 2014); see also
Twentieth Century Fox Film Corp. v. Ent’mt Dist., 429
F.3d 869, 885 (9th Cir. 2005) (“Construing § 505 as
limiting the costs that may be awarded to any
particular subset of taxable costs effectively reads the
word ‘full’ out of the statute . . . . Thus, we hold that
district courts may award otherwise non-taxable costs
. . . under § 505.”). Defendants seek $36,818.90 in nontaxable costs and $3,472.31 in taxable costs.
Defendants’ taxable costs are comprised of $227 in fees
for service of process and $3,244.71 in depositionrelated costs. Ex. 5 to Ferdinand Decl., Dkt. 141-7.
Approximately $30,099 of the non-taxable costs are
related to expert witnesses. See Ex. 6 to Ferdinand
Decl., Dkt. 141-8. Defendants did not rely on any
expert witnesses in support of their Motion for
Summary Judgment or in opposition to Plaintiff’s
parallel Motion for Summary Judgment. Therefore,
these costs, which were incurred in connection with a
potential merits defense, are not ones that are justified
by the applicable discretionary standards.

App. 67
For the foregoing reasons, Defendants are awarded
their full taxable costs of $3,472.31 and $6,719.90 in
non-taxable costs.
IV. Conclusion
For the reasons stated in this Order, the Motion is
GRANTED IN PART. Defendants shall recover their
full taxable costs of $3,472.31, $111,230.80 in
attorney’s fees, and $6,719.90 in non-taxable costs. On
or before December 19, 2017, counsel shall meet and
confer in an effort to reach an agreement as to the form
of a proposed amended judgment that is consistent
with this Order. Defendant shall lodge such a proposed
amended judgment on December 20, 2017. The
proposed amended judgment shall also provide that
this Order may be appealed through the filing of a
notice of appeal or amended notice of appeal with the
Ninth Circuit with respect to the proposed amended
judgment. See Fed. R. App. P. 4(a)(4). The notice of
lodging shall indicate whether the form of judgment is
agreed upon or whether Plaintiff will be filing any
objections to that proposed amended judgment on or
before December 22, 2017.
IT IS SO ORDERED.
__________ : __________
Initials of Preparer ak

App. 68

APPENDIX D
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. 2:16-cv-00339-JAK-FFM
[Filed May 26, 2017]
______________________________________
GOLD VALUE INTERNATIONAL
TEXTILE, INC., a California
Corporation, individually and doing
business as “FIESTA FABRIC,”

)
)
)
)
)
Plaintiff,
)
)
vs.
)
)
SANCTUARY CLOTHING, LLC, a
)
California Limited Liability Company;
)
AMAZON.COM, INC., a Washington
)
Corporation, BLOOMINGDALE’S,
)
INC., a New York Corporation;
)
DILLARD’S, INC., an Arkansas
)
Corporation; MACY’S, INC., an Ohio
)
Corporation; NORDSTROM, INC., a
)
Washington Corporation; ZAPPOS IP,
)
INC., a Nevada Corporation; and
)
DOES 1 through 10,
)
)
Defendants.
)
______________________________________ )

App. 69
JUDGMENT
JS-6
IT IS HEREBY ORDERED, ADJUDGED AND
DECREED THAT:
Judgment is entered in favor of Defendants and
against Plaintiff Gold Value International Textile, Inc.
on all claims brought by Plaintiff in this action.
Plaintiff’s claims are hereby dismissed with prejudice.
Plaintiff shall recover nothing against Defendants.
Judgment is entered in favor of Defendant
Sanctuary and against Plaintiff on Defendant
Sanctuary’s counterclaim.
Judgment is entered declaring U.S. Copyright
Registration No. VAu 1-151-509 invalid as to the twodimensional artwork titled 1461-Crochet emb.
Defendants are the prevailing parties in this action
and are entitled to an award of costs pursuant to Fed.
R. Civ. P. 54(d)(1).
IT IS SO
DECREED.

ORDERED,

ADJUDGED,

AND

Dated: May 26, 2017
/s/John A. Krondstadt
JOHN A. KRONSTADT
UNITED STATES DISTRICT JUDGE

App. 70

APPENDIX E
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. LA CV16-00339 JAK (FFMx)
[Filed May 12, 2017]
___________________________________
Gold Value International Textile, Inc. )
)
v.
)
)
Sanctuary Clothing, LLC, et al.
)
___________________________________ )
CIVIL MINUTES – GENERAL
Present: The Honorable JOHN A. KRONSTADT,
UNITED STATES DISTRICT JUDGE
Andrea Keifer
Deputy Clerk

Not Reported
Court Reporter / Recorder

Attorneys Present for Plaintiffs: Not Present
Attorneys Present for Defendants: Not Present
Proceedings: (IN CHAMBERS) ORDER RE
DEFENDANTS’ MOTION FOR
SUMMARY JUDGMENT (DKT. 57);
PLAINTIFF’S MOTION FOR
SUMMARY ADJUDICATION AS
TO LIABILITY FOR COPYRIGHT
INFRINGEMENT WILLFULNESS,

App. 71
AND INFRINGING REVENUES
(DKT. 72); PLAINTIFF’S MOTION
FOR RECONSIDERATION OF
RULING ON THE PARTIES’
MOTIONS FOR SUMMARY
JUDGMENT (DKT. 119)
I. Introduction
Gold Value International Textile, Inc. (“Plaintiff”)
brought this action for copyright infringement against
Sanctuary Clothing LLC (“Sanctuary”), Amazon.com,
Inc., Bloomingdale’s, Inc., Dillard’s, Inc., Macy’s, Inc.,
Nordstrom, Inc. and Zappos IP, Inc. (collectively,
“Defendants”). On March 14, 2016, Sanctuary brought
a counterclaim, seeking the invalidation of Plaintiff’s
copyright. Dkt. 37.
On November 18, 2016, Defendants filed a Motion for
Summary Judgment (“Defendants’ Motion”) as to all
claims in the Complaint and Counterclaim. Dkt. 57.
Plaintiff opposed Defendants’ Motion (Dkt. 60), and
Defendants replied. Dkt. 65. On February 17, 2017,
Plaintiff filed a Motion for Summary Judgment
(“Plaintiff’s Motion”). Dkt. 72. Defendants opposed
Plaintiff’s Motion (Dkt. 93), and Plaintiff replied. Dkt.
99. On March 13, 2017, a hearing on the Motions was
held, and they were taken under submission. Dkt. 110.
On March 24, 2017, the Court issued an Order on the
Motions referring an inquiry to the Register of
Copyrights (Dkt. 116). Dkt. 115. A final determination
of the Motions was deferred pending the response from
the Register. Dkt. 115.

App. 72
On April 5, 2017, Plaintiff filed a Motion for
Reconsideration of the March 24, 2017 Order. Dkt. 119.
On April 20, 2017, Defendants opposed the Motion for
Reconsideration. Dkt. 121. On April 28, 2017, the
Register of Copyrights filed a Response to the inquiry
from this Court. Dkt. 122. On May 2, 2017, Plaintiff
filed its Reply. Dkt. 124. On May 8, 2017, Defendants
filed a sur-reply addressing the Response from the
Register of Copyright. Dkt. 128. Plaintiff then filed a
response. Dkt. 129.
For the reasons stated in this Order, Defendants’
Motion is GRANTED, Plaintiff’s Motion is DENIED,
and Plaintiff’s Motion for Reconsideration is DENIED.
II. Factual Background
The factual background of this action is detailed in the
March 24, 2017 Order deferring the Motions for
Summary Judgment. Dkt. 115. That Order is
incorporated by this reference. A brief summary follows
of the background relevant to the new issues addressed
in this Order.
The Complaint alleges that Plaintiff created and owns
the copyright in a two-dimensional textile design,
which is titled 1461-43 (“1461 Design”). The Complaint
alleges that Sanctuary created and sold to the other
Defendants garments bearing a design substantially
similar to the 1461 Design, and that these Defendants
resold these items to their customers. In response to
Plaintiff’s claims of copyright infringement, Defendants
challenged the validity of the underlying Copyright
Registration No. Vau 1-151-509 for 2-dimensional
artwork (“Grp.029-Spring/Summer 2014”) (“‘509

App. 73
Registration”) as to the 1461 Design. The ‘509
Registration was for an unpublished collection of
designs. However, the 1461 Design had been published
prior to the time Plaintiff filed for, and obtained the
‘509 Registration, which was issued on October 24,
2013. Defendants contend that because it was a
published design, the 1461 Design was improperly
included in the ‘509 Registration. They contend that
Plaintiff knowingly submitted inaccurate information
when it filed its application for this copyright on
October 24, 2013. They argue that, but for the
submission of this information, the Register of
Copyrights would have refused registration.
The prior Order determined that Plaintiff’s undisputed
actions of selling to its customers fabric samples that
used the 1461 Design prior to October 24, 2013,
constituted a publication of the 1461 Design. Dkt. 115.
The prior Order determined that Plaintiff knowingly
submitted inaccurate information in connection with
its application for the ‘509 Registration. Dkt. 115.
Thus, pursuant to 17 U.S.C. § 411(b)(2), the following
question was referred to the Register of Copyrights:
Would the Register of Copyrights have rejected
Plaintiff’s Registration No. VAu 1-151-509 for 2dimensional artwork (“Grp.029-Spring/Summer
2014,” filed October 24, 2013) with respect to
Design 1461? Thus, would it have done so if, at
the time of the application, the Register of
Copyrights had known that, although Plaintiff
had characterized the work as an unpublished
collection that included the 1461 Design,
Plaintiff previously had published the 1461

App. 74
Design when it sold to its customers fabric
samples that used the 1461 Design, without
limiting further distribution or sale by those
customers?
Dkt. 116.
In its Response, after providing an analysis of the
governing standards, the Register stated:
Based on the foregoing governing statutory and
regulatory standards, and its examining
practices, had the Office been aware that the
1461 Design had been previously published, the
Office would have refused registration of that
work using the unpublished collections option
because the work was registered as unpublished
when in fact it had been published.
Dkt. 122-1 at 4.
The Register noted that if it is made aware of an error
at the time of application, the general practice of the
Copyright Office is to correspond with the applicant
and give an opportunity to correct the error within a 45
day period. Id. The Register’s response was “premised
on the fact that the error identified in the Court’s
question was not timely corrected” by correspondence
between Plaintiff and the Register at the time the
application was made. Id.

App. 75
III. Analysis
A. Motions for Summary Judgment – Whether
the Copyright Office Would Have Refused
Registration
1. Legal Standard
As the Ninth Circuit has explained:
“A certificate of registration satisfies the
[registration requirement], regardless of
whether the certificate contains any inaccurate
information,” unless (1) “the inaccurate
information was included on the application for
copyright registration with knowledge that it
was inaccurate,” and (2) “the inaccuracy of the
information, if known, would have caused the
Register of Copyrights to refuse registration.”
L.A. Printex Indus., Inc. v. Aeropostale, Inc., 676 F.3d
841, 852-53 (9th Cir. 2012), as amended on denial of
reh’g and reh’g en banc (June 13, 2012) (quotations of
17 U.S.C. § 411(b)(1) in original).
“The Copyright Act expressly authorizes the Register
to prescribe by regulation the conditions and
procedures for the registration of copyrights and the
applications for registration.” Olander Enters., Inc. v.
Spencer Gifts, LLC, 812 F. Supp. 2d 1070, 1075 (C.D.
Cal. 2011) (citing 17 U.S.C. §§ 408(c)(1), 409 (2006)).
“According to the registration regulations, typically a
copyright claimant must file a separate application to
obtain a separate registration for each creative work
for which the claimant seeks protection.” Id. As L.A.
Printex explained:

App. 76
The Copyright Act permits the registration of
multiple works as a single work. 17 U.S.C.
§ 408(c)(1). For purposes of registration as a
single work, copyright regulations distinguish
between published works and unpublished
works. See 37 C.F.R. § 202.3(b)(4)(i). A published
collection of works must be “sold, distributed or
offered for sale concurrently.” United Fabrics
Int’l, Inc. v. C & J Wear, Inc., 630 F.3d 1255,
1259 (9th Cir. 2011). For unpublished works,
“there is no such requirement.” Id. A group of
unpublished works may be registered as a single
work if it consists of “all copyrightable elements
that are otherwise recognizable as self-contained
works, and are combined in a single unpublished
‘collection.’” 37 C.F.R. § 202.3(b)(4)(i)(B).
676 F.3d at 853.
37 C.F.R. § 202.3(b)(4) sets forth the following
requirements for registering a collection as a single
work:
(i) For the purpose of registration on a single
application and upon payment of a single
registration fee, the following shall be
considered a single work:
(A) In the case of published works: all
copyrightable elements that are otherwise
recognizable as self-contained works, that
are included in a single unit of publication,
and in which the copyright claimant is the
same; and
(B) In the case of unpublished works: all
copyrightable elements that are otherwise

App. 77
recognizable as self-contained works, and are
combined in a single unpublished
“collection.” For these purposes, a
combination of such elements shall be
considered a “collection” if:
(1) The elements are assembled in an
orderly form;
(2) The combined elements bear a single
title identifying the collection as a whole;
(3) The copyright claimant in all of the
elements, and in the collection as a whole,
is the same; and
(4) All of the elements are by the same
author, or, if they are by different
authors, at least one of the authors has
contributed copyrightable authorship to
each element.
2. The Copyright Office’s Guidance
a) The Response from the Register of
Copyrights
As noted, the Register of Copyrights responded to
Court’s inquiry, stating that it would have refused
registration. Dkt. 122-1. The Response provided a
thorough analysis of the requirements of the Copyright
Act, the governing regulations and the principles and
policies of the Copyright Office as detailed in the
Compendium. As the Response noted, “[i]n responding
to the Court’s question, the Office applies the foregoing
governing statutory and regulatory standards, and
examining principles.” Dkt. 122-1 at 4. The analysis of
the Response and its application of these standards are
persuasive. Further, the Response is consistent with

App. 78
Ninth Circuit authority and the decisions of district
courts that have considered the same issue.
b) The Response Is Consistent with the
Copyright Office’s Guidance
The Copyright Office will not accept a registration as
valid of a published work included in an unpublished
collection. The published work must be registered
separately, and cannot be included in a supplemental
registration to the registration for the unpublished
collection. In referencing the policy of the Copyright
Office with respect to correcting mistakes, the
Copyright Circular states: “A supplementary
registration is not appropriate if the work was
registered as unpublished when it was actually
published at the time of registration.” U.S. Copyright
Office, Copyright Circular 8, at 1 (2013). It also
provides:
Published Work Previously Registered as
Unpublished. A supplementary registration is
not acceptable to correct a registration that did
not identify the work as published. The deposit
requirement for a published work is different
from that for an unpublished work. Therefore,
the proper deposit requirement has not been met
and cannot be met with a supplementary
registration. In this case, another basic
registration should be made with the proper
deposit materials for a published work. In the
“Limitation of Claim” section of the registration
application, give the registration number and
year of the previous registration in the spaces
provided. In the “Other” box for “New Material

App. 79
Included,” state, “This registration is made to
correct a registration that was incorrectly made
as unpublished.”
U.S. Copyright Office, Copyright Circular 8, at 3 (2013).
Similarly, § 1802.7(C) of the Copyright Office’s
Compendium III provides:
Publication Issues: Ordinarily, if the work was
published on or before the effective date of
registration for the basic registration and if the
applicant mistakenly claimed that the work was
unpublished as of that date, the date of
publication cannot be added to the registration
record with a supplementary registration.
Compendium III § 1802.7(C).1
The Compendium also provides that “an applicant
cannot use [the unpublished collection] option to
1

The Copyright Office explains that the justification for this policy
is that
[i]n most cases, these types of publication issues cannot be
corrected with a supplementary registration because the
deposit requirement for a published work and an
unpublished work are not the same. As a general rule, the
applicant must submit two complete copies of the best
edition if the work has been published, but only one
complete copy is required for an unpublished work. By
contrast, if an unpublished work was erroneously
registered as a published work, the date of publication may
be corrected with a supplementary registration, because
the deposit copies for a published work usually satisfy the
deposit requirement for an unpublished work.
Compendium III § 1802.7(C) (citations omitted).

App. 80
register a number of published and unpublished works.
If any of the works have been published, the applicant
should not include those works in the claim.”
Compendium III § 1106.1.
The practices and policies of the Copyright Office are
consistent with the position taken by the Register that
it would not have registered the 1461 Design as part of
the ‘509 Registration if it had known that the 1461
Design previously had been published.
3. District Courts’ Decisions
Other district courts that have addressed these issues
have reached the same conclusions For example,
Family Dollar Stores, Inc. v. United Fabrics Int’l, Inc.
found that “prior publication does not invalidate
registration of the unpublished elements of the
collection (there are apparently six previously
unpublished designs among the 19 in the collection),
but it does invalidate the registration as to the
previously published designs, including the one in the
case at bar.” 896 F. Supp. 2d 223, 231 (S.D.N.Y. 2012).2

2

Plaintiff argues that Family Dollar should not be followed
because it has been “harshly criticized” and the court in Family
Dollar later reinstated the claim that had been dismissed in that
opinion. Plaintiff characterizes this reinstatement of the claim as
a “reversal” of the opinion. In its order reinstating the claim, the
court did not call this a reversal, and did not vacate or reverse its
earlier ruling. Instead, the court reinstated the claim so that
plaintiff could proceed with the copyright infringement based on
a supplemental registration that the plaintiff had obtained, which
no longer included both published and unpublished designs. In
Family Dollar, the court left open the question whether the action
could proceed under the supplemental registration, and ordered

App. 81
Family Dollar held that including the previously
published design that was registered in a collection of
unpublished works was a material error because “the
error invalidate[d] the registration as to the very
design that [was] the subject of [the] lawsuit.” Id.
Two other decisions within this District have also
considered this issue. Urban Textile, Inc. v. Cato Corp.
considered a claim for copyright infringement over “a
previously published work that [the plaintiff] included
as part of a collection of unpublished works.” No. 2:14cv-06967-ODW-FFMx, 2016 WL 6804911, at *6 (C.D.
Cal. Apr. 1, 2016). In invalidating the copyright
registration, Urban Textile found that the error of
including the published work in the registration was
not a minor, technical one because it “would have
clearly caused the Register of Copyrights to refuse to
issue a registration for the Subject Design as it stood
within a collection of purportedly unpublished works.”
Id. Thus, Urban Textile held that “[a] published design
included in an unpublished collection copyright
registration application cannot be registered as part of
the collection.” Id. at *5. Urban Textile considered the
Compendium as part of its analysis See id. (“Where the
applicant seeks registration as an unpublished work
and provides the Office with a statement of facts which
clearly show that publication has occurred, the Office
will not register a claim to copyright in the work as
unpublished.” (quoting United States Copyright Office,

the parties to brief the issue. 896 F. Supp. 2d at 234. In reinstating
the claim, the court did not vacate its holding that the original
registration that contained the published and unpublished designs
was invalid.

App. 82
Compendium of Office Practices II § 904(5))). The court
found that “[p]rior publication does not invalidate
registration of the unpublished elements of the
collection, but it does invalidate the registration as to
the previously published designs, including the one in
the case at bar.” Id.
Olander considered a claim for copyright infringement
based on the registration of an unpublished collection
of belt buckles. 812 F. Supp. 2d at 1076. Olander
examined the relevant case law and looked to the
literature of the Copyright Office for guidance because
“the Ninth Circuit has held that courts should
generally defer to the Register’s interpretation of
copyright statutes and regulations and the few other
courts who have addressed the issue have also deferred
to the interpretation offered by the United States
Copyright Office.” Id. at 1076 (citations omitted).
Olander found that the copyright registration was
invalid as to the works that had been published before
the application for copyright registration, and on
summary judgment rejected the claims of the copyright
holder. Olander explained the policy rationale behind
the position of the Copyright Office:
Restricting the “single work” registration to
groups of works that are published together for
the first time as part of a single unit of
publication similarly discourages copyright
holders from sitting on their rights by
preventing a copyright holder from selling an
individual work for months or years without
registering it, and then later registering it as
part of a collection in order to avoid any

App. 83
consequences from the failure to register the
work such as the unavailability of statutory
damages and attorneys’ fees. This case also
illustrates the practical importance of an
administrative rule that prevents copyright
holders from surreptitiously including
previously published works as part of a “single
work” registration, when they should in fact be
excluded. See U.S. Copyright Office, Help: Type
of Work, http://www.copyright.gov/eco/helptype.html (last visited Aug. 19, 2011). Olander
was able to obtain only four registrations that
purport to cover some 700 belt buckle designs
without specifically showing which, if any, of the
belt buckles were covered by prior valid
registrations or derived from works registered
by Olander or other authors or copyright
holders. (See Curtis Decl. Exs. 1–8.) Not only are
the copyright examiners’ abilities to catch
improper inclusions among hundreds of works in
a multiple work registration limited by time and
resource constraints, but also those limitations
are exacerbated by the ex parte nature of the
application process, which does not provide an
opportunity for another creator of a similar work
to object to the inclusion of a particular work on
the grounds that he or she has already created
a similar work.
812 F. Supp. 2d 1070, 1077 (C.D. Cal. 2011).
4. L.A. Printex Supports the Same Result
L.A. Printex considered a similar issue. 676 F.3d 841.
L.A. Printex held that the inclusion of two previously

App. 84
published designs in an unpublished collection did not
invalidate the registration of that collection as to the
designs at issue in the infringement action, which were
unpublished designs in that same collection. 676 F.3d
at 854. L.A. Printex found that the error of including
these published designs in the unpublished collection
was not one that would have caused the Register of
Copyrights to refuse registration. Id. This was because
[u]pon learning of its registration error, L.A.
Printex corrected it. It filed an application for
supplementary registration, communicated with
the Copyright Office about the error through
email and phone correspondence, and filed a
second application for supplementary
registration. Moreover, the Copyright Office
issued a certificate of supplementary
registration.
Id.
It is also deemed significant that when L.A. Printex
“contacted the Copyright Office to ask about its
registration of a single unpublished work that
contained both published and unpublished
designs[, t]he Copyright Office told L.A. Printex that
the unpublished designs, including [the one at issue in
the infringement action], would retain copyright
protection but that the previously published designs
would not.” Id. at 845. The Copyright Office issued a
supplementary registration for the unpublished
collection only after L.A. Printex removed the
previously published designs from the collection. Id. at
845-46.

App. 85
As Urban Textile noted in applying L.A. Printex to its
similar facts:
L.A. Printex presented the inverse of the
situation here: in that case the plaintiff did not
assert that the defendant infringed the
previously published designs that had been
improperly included in the collection
registration. Rather, it alleged that the
defendant infringed an unpublished design in
the registered collection. Accordingly, the panel
found that the inclusion of the published designs
was a minor technical error that did not affect
the registration of the unpublished designs,
which the plaintiff nevertheless corrected with
the assistance of the Register of Copyrights in a
supplementary registration. It would have been
inequitable for the panel to invalidate the whole
copyright registration, even the portions that
were properly registered, absent a showing of
fraud.
Urban Textile, 2016 WL 6804911, at *5 (citations
omitted).
***

App. 86
These cases are persuasive.3 Here, the 1461 Design was
included in the ‘509 Registration of a collection of
unpublished work. The 1461 Design had previously
been published. As noted, the Copyright Office will not
issue a single work registration for an unpublished
collection when that unpublished collection contains a
work that previously has been published. This is
confirmed by the holding in L.A. Printex and is
consistent with the Copyright Office’s actions in that
case. As the district courts have observed, these rules
align with the goals of the Copyright Act. Thus, as
noted in its Response, the Copyright Office would not

3

The Ninth Circuit’s recent decision in Unicolors, Inc. v. Urban
Outfitters, Inc., 853 F.3d 980, 984 (9th Cir. 2017) does not warrant
a different result. Unicolors held that the plaintiff’s “inadvertent
exclusion” of the source artwork from the registration by listing it
in the incorrect location on the application form, was a “good faith
mistake.” Id. at 991; see also id. at 990 (“it was arguably
reasonable for Unicolors to believe that it was required to list
QQ–692 in Space 6 in order to comply with Section 409(9), even
though it did not intend to exclude that work.”). Thus, the mistake
in Unicolors could not have invalidated the copyright registration
because the inaccurate information was not included “with
knowledge that it was inaccurate.” 17 U.S.C. § 411(b)(1); see
Unicolors, 853 F.3d at 991 (“Here, Unicolors’s exclusion of QQ–692
was a good faith mistake. Moreover, it is clear that the mistake
would not have caused the copyright office to refuse registration
because the copyright office later approved Unicolors’s request to
correct the inadvertent exclusion.”). Further, Unicolors held that
any error would not have an effect on the plaintiff’s infringement
claim that was at issue, because that claim was not based on the
source work, but on the derivative work that was properly included
in the registration. Id. at 990 (“Thus, Urban’s claim that QQ–692
was not registered is irrelevant because the registration of a
derivative work ‘is independent of ... any copyright protection in
the preexisting material.’” (quoting 17 U.S.C. § 103(b))).

App. 87
have issued a registration for the 1461 Design if it had
known that the 1461 Design previously had been
published. That the Copyright Office would have
refused registration to the 1461 Design is further
evidenced by the fact that when Plaintiff filed to have
the 1461 Design registered and disclosed its prior
publication, the Copyright Office did not issue a
supplement to the ‘509 Registration, but instead issued
a separate, independent registration.
***
For the foregoing reasons, the Copyright Office would
not have issued a registration for the 1461 Design as
part of the unpublished collection in the ‘509
Registration if it had known that it previously had been
published. The undisputed evidence shows that
Defendants have met their burden pursuant to 17
U.S.C. § 411(b)(1) to invalidate the ‘509 Registration as
to the 1461 Design. Because the ‘509 Registration is the
only Registration at issue in this action, Plaintiff
cannot sustain its claim for copyright infringement.
Dkt. 4 (AO 121 Report on the Filing of an Action
Regarding a Copyright).
5. The Action Cannot Proceed on the Source Art
Registrations Absent Leave to Amend
Plaintiff contends that if the ‘509 Registration is
invalid as to the 1461 Design, it can maintain its
infringement action based on the registered copyrights
that Plaintiff owns for the underlying source art in the
1461 Design. Plaintiff argues that the 1461 Design is a
derivative work of the source art. Consequently,
Plaintiff claims that it can maintain an action for

App. 88
infringement of the source art to the extent that such
art is subsumed by the final 1461 Design. However, the
source art copyright registrations were not identified in
the pleadings and Plaintiff did not mention them prior
to filing it its Opposition. Plaintiff cannot pursue
claims for the infringement of the source art without
amending the pleadings to include the copyright
registrations for the source art materials.
None of the cases to which Plaintiff cites supports its
claim. See Xoom, Inc. v. Imageline, Inc., 323 F.3d 279,
283 (4th Cir. 2003) (ownership of a registered collective
work permitted a suit for infringement of a constituent
part of that work), abrogated by Reed Elsevier, 559 U.S.
154; Greenwich Film Prods. v. DRG Records, Inc., 833
F. Supp. 248, 251-52 (S.D.N.Y.1993) (registration for
source film was sufficient to maintain action for
derivative musical compositions contained therein);
Streetwise Maps, Inc. v. Vandam, Inc., 159 F.3d 739,
747 (2d Cir.1998) (registration for derivative work
allows infringement claim as to underlying source
works because “the registration certificate relating to
the derivative work in this circumstance will suffice to
permit it to maintain an action for infringement based
on defendants’ infringement of the pre-existing work”);
Klauber Bros. v. Russell-Newman, Inc., No. 11 CIV.
4985 PGG, 2013 WL 1245456, at *5 (S.D.N.Y. Mar. 26,
2013) (an owner of an unregistered derivative work can
maintain a claim for infringement of that work based
on the registered source work, when “all of the
allegedly protectable elements of the [unregistered
derivative] design are contained in the registered 7088
design.”); Brocade Commc’ns Sys., Inc. v. A10
Networks, Inc., No. C 10-3428 PSG, 2013 WL 831528,

App. 89
at *4 (N.D. Cal. Jan. 10, 2013) (because plaintiff owned
derivative computer code and original computer code,
it was proper to allow plaintiff “to rely on the derivative
work registration to enforce its rights in the original
work”).
In each case cited by Plaintiff, the derivative work was
covered by a valid registration that was within the
scope of the allegations in the complaint. These cases
would support the position that if a valid registration
for a derivative work had been pleaded here, Plaintiff
could also bring a claim for infringement of the
underlying source work, even if it were unregistered.
These cases do not, however, support the position that
Plaintiff could bring an infringement action for the
registered underlying source work without alleging any
valid copyright registrations in its operative complaint.
As noted, the ‘509 Registration is invalid as to the 1461
Design. The ‘509 Registration is the only registration
put at issue by the operative complaint. Nor are the
source art registrations part of the pleadings.
Consequently, because there are no valid registrations
presented in the operative complaint, there is no valid
basis presented for a claim for infringement of the 1461
Design as a derivative work.
6. Leave to Amend to Include the ‘252
Registration
On June 9, 2016, the Copyright Office issued to
Plaintiff Copyright Registration No. VA 2-006-252
(“‘252 Registration”) for a single work titled “1461.”
Rutherford Decl., Ex. C, Dkt. 57-4 (‘252 Registration).
The ‘252 Registration states that the “Date of 1st

App. 90
Publication” is “March 12, 2013.” Id. Plaintiff argues
that if the ‘509 Registration is invalid, it can maintain
this action for infringement of the ‘252 Registration.
Defendants argue that the ‘252 Registration cannot
support this action because it was not identified in the
Complaint or Form AO 121, as one of the copyrights at
issue.
Plaintiff did not obtain the ‘252 Registration until June
9, 2016, five months after filing this action. Plaintiff
has neither amended its complaint nor sought leave to
do so, notwithstanding that it obtained the ‘252
Registration before June 27, 2016, which was the last
day to amend pleadings set in the May 23, 2016
Scheduling Order. Dkt. 41. However, in its Opposition,
Plaintiff argues for the first time that it should be
given leave to amend to add the ‘252 Registration as a
basis for its claims in this action if the ‘509
Registration is found invalid as to the 1461 Design.
Absent the filing of an amended complaint, this action
cannot proceed as to any alleged infringement of the
‘252 Registration. Whether leave to amend is
appropriate is addressed in the following discussion.
a) Legal Standards
In general, a court “will not consider claims raised for
the first time in summary judgment which [a p]laintiff
did not raise in [the] Complaint.” Nolan v. Vilsack, No.
14-cv-08113-ABF-FMX, 2016 WL 3678992, at *4 (C.D.
Cal. June 30, 2016); see also, e.g., Burrell v. Cty. of
Santa Clara, No. 11-cv-04569, 2013 WL 2156374, at
*11 (N.D. Cal. May 17, 2013) (citing Coleman v. Quaker
Oats Co., 232 F.3d 1271, 1292 (9th Cir. 2000) (“A
complaint guides the parties’ discovery, putting the

App. 91
defendant on notice of the evidence it needs to adduce
in order to defend against the plaintiff’s allegations.”));
In re TFT-LCD (Flat Panel) Antitrust Litig., No. M 071827, 2012 WL 5411590, at *5 (N.D. Cal. Nov. 6, 2012)
(refusing to consider Plaintiff’s new theories in
opposition to summary judgment and granting
summary judgment in defendant’s favor); Ortiz v.
Lopez, 688 F. Supp. 2d 1072, 1082 (E.D. Cal. 2010).
Furthermore, “when a party seeks to amend a pleading
after the pretrial scheduling order’s deadline for
amending the pleadings has expired, the liberal
standard of Rule 15 no longer applies.” Acad. of
Country Music v. ACM Records, Inc., No. 13-cv-02448
DDP RZX, 2014 WL 2586859, at *2 (C.D. Cal. June 10,
2014) (citing Johnson v. Mammoth Recreations, 975
F.2d 604, 607-08 (9th Cir.1992)). Instead, the party’s
“ability to amend his complaint [i]s governed by Rule
16(b), not Rule 15(a).” Johnson, 975 F.2d at 608. “A
schedule may be modified only for good cause and with
the judge’s consent.” Fed. R. Civ. P 16(b)(4). “Unlike
Rule 15(a)’s liberal amendment policy which focuses on
the bad faith of the party seeking to interpose an
amendment and the prejudice to the opposing party,
Rule 16(b)’s ‘good cause’ standard primarily considers
the diligence of the party seeking the amendment.”
Johnson, 975 F.2d at 609.
Although a court may take into account any prejudice
to the non-moving party, “the focus of the [Rule 16(b)]
inquiry is upon the moving party’s reasons for seeking
modification ... [i]f that party was not diligent, the
inquiry should end.” In re W. States Wholesale Nat. Gas
Antitrust Litig., 715 F.3d 716, 737 (9th Cir. 2013)

App. 92
(quoting Johnson, 975 F.2d at 609), aff’d sub nom.
Oneok, Inc. v. Learjet, Inc., 135 S. Ct. 1591 (2015).
Thus, “[a] party’s failure to act diligently is
determinative.” Manriquez v. City of Phoenix, 654 F.
App’x 350, 351 (9th Cir. 2016). “[C]arelessness is not
compatible with a finding of diligence and offers no
reason for a grant of relief.” Johnson, 975 F.2d at 609;
see also Briggs v. Blomkamp, No. C 13-4679 PJH, 2014
WL 4100689, at *3 (N.D. Cal. Aug. 20, 2014).
As another district court explained in addressing these
issues:
When the proposed modification is an
amendment to the pleadings, the moving party
may establish good cause by showing “(1) that
[he or she] was diligent in assisting the court in
creating a workable Rule 16 order; (2) that [his
or her] noncompliance with a rule 16 deadline
occurred or will occur, notwithstanding [his or
her] diligent efforts to comply, because of the
development of matters which could not have
been reasonably foreseen or anticipated at the
time of the Rule 16 scheduling conference; and
(3) that [he or she] was diligent in seeking
amendment of the Rule 16 order, once it became
apparent that [he or she] could not comply with
the order.”
Hood v. Hartford Life & Acc. Ins. Co., 567 F. Supp. 2d
1221, 1224 (E.D. Cal. 2008) (citation omitted).
b) Application
Plaintiff first requested leave to amend in its untimely
Opposition to Defendants’ Motion for Summary

App. 93
Judgment. Dkt. 60.4 The Opposition was filed on
January 11, 2017. This was approximately one year
after the Complaint was filed on January 15, 2016.
Plaintiff was first put on notice of Defendants’
challenge to the validity of the ‘509 registration due to
the prior publication of the 1461 Design through the
Answer and Counterclaim, which were filed on March
14, 2016. Dkts. 35; 37 ¶ 17 (“Upon information and
belief, one, some, or all of the works covered by the ‘509
Registration, including but not limited to the 1461
Design, were published at the time of the filing of the
underlying application, and as a result, the ‘509
Registration is invalid for non-compliance with
regulations prescribing conditions to register groups of
works of visual arts, 37 C.F.R. § 202.3.”).
Defendants also raised the issue of the validity of the
‘509 Registration in the parties’ Rule 26(f) Joint Report,
which was filed on May 4, 2016. Dkt. 40. There,
Defendants stated that they planned to file a motion
for summary judgment on this issue. Id. During the
Scheduling Conference, which was held on May 23,
2016, the last day to amend pleadings was set for June
27, 2016. Dkt. 41. It is also significant that, perhaps in
recognition of these arguments, Plaintiff obtained the
‘252 Registration on June 9, 2016. Plaintiff’s Statement
4

Defendants filed their Motion for Summary Judgment on
November 18, 2016. Pursuant to this Court’s Standing Orders,
Plaintiff’s Opposition was due on December 9, 2016. Plaintiff did
not file its Opposition until January 11, 2017. Plaintiff has
provided no explanation for this untimely filing, and did not seek
leave to do so. On November 18, 2016, the Court granted a
stipulation to extend the discovery and pretrial deadlines in this
matter, but did not extend the last day to amend pleadings.

App. 94
of Facts in Dispute, Dkt. 60-7 ¶ 12. However, Plaintiff
did not seek leave to amend the Complaint to add the
‘252 Registration, notwithstanding that it could have
done so as late as June 27, 2016, without leave. On
November 3, 2016, the parties filed a stipulation to
continue certain pretrial and trial dates, but did not
seek any change as to the deadline for amending the
Complaint. Dkt. 56.
Plaintiff filed its own Motion for Summary Judgment
on February 17, 2017, two weeks before the hearing
was set on Defendants’ Motion for Summary Judgment.
Dkt. 72. There was no mention of a request for leave to
amend. Id. Nor was such a request made in Plaintiff’s
reply brief. Dkt. 79. After the hearing on the motions,
Plaintiff filed its motion for reconsideration. Dkt. 119.
Once again, there was no reference to a request for
leave to amend, notwithstanding that the issues raised
were tied directly to the potential need to do so.
Further, Plaintiff did not meaningfully address this
issue in its Opposition. There, Plaintiff states only that
leave to amend should be granted pursuant to the
liberal standards of Fed. R. Civ. P. 15 and cites several
cases in which amendment was permitted after a
motion to dismiss or one for judgment on the pleadings
was granted.5

5

Plaintiff only identifies one case in which leave to amend was
permitted after a motion for partial summary judgment was
granted. Tabra, Inc. v. Treasures de Paradise Designs, Inc., No. C90-0155 MHP, 1992 WL 73463, at *5 (N.D. Cal. Apr. 4, 1992).
Tabra permitted leave to amend under Fed. R. Civ. P. 15, pursuant
to a timely filed motion, after finding that Plaintiff “promptly” took
steps to cure the deficiencies within a month of discovering them.

App. 95
Further, Defendants would be prejudiced if leave to
amend were granted. Defendants brought and
prevailed on their motion for summary judgment on
the issue of the invalidity of the ‘509 Registration.
Plaintiff filed a motion for summary judgment with
respect to the ‘509 Registration, as well as a motion for
reconsideration of the Court’s prior Order deferring a
ruling on those motions. It would impose an undue
burden on Defendants if they were required to redo
that process, which would likely require further
discovery, in an action that has been pending for 17
months.
***
For the foregoing reasons, Defendants’ Motion is
GRANTED. Plaintiff’s Motion is DENIED.
B. Motion for Reconsideration
Fed. R. Civ. P. 59(e) provides that a reconsideration of
a prior decision is appropriate if the district court: (1) is
presented with newly discovered evidence;
(2) committed clear error or made an initial decision
that was manifestly unjust; or (3) there is an
intervening change in controlling law. See School Dist.
No. 1J, Multnomah Cty. v. ACandS, Inc., 5 F.3d 1255,
1263 (9th Cir. 1993). Local Rule 7-18 parallels Rule
59(e). It provides:
A motion for reconsideration of the decision on
any motion may be made only on the grounds of

Id. For the reasons stated above, the timeline in this action is quite
different.

App. 96
(a) a material difference in fact or law from that
presented to the Court before such decision that
in the exercise of reasonable diligence could not
have been known to the party moving for
reconsideration at the time of such decision, or
(b) the emergence of new material facts or a
change of law occurring after the time of such
decision, or (c) a manifest showing of a failure to
consider material facts presented to the Court
before such decision. No motion for
reconsideration shall in any manner repeat any
oral or written argument made in support of or
in opposition to the original motion.
Id.
Plaintiff argues that the March 24, 2017 Order should
be reconsidered because it reflects clear errors in
applying the controlling law and is inconsistent with
Unicolors, Inc. v. Urban Outfitters, Inc., 853 F.3d 980
(9th Cir. 2017), which issued on April 3, 2017 after the
prior Order was filed. Plaintiff relies on the statement
in Unicolors that “[g]ood faith mistakes in copyright
applications do not preclude an infringement action,” to
argue that the prior Order should have considered
whether its actions in applying for the ‘509
Registration were made in good faith. Id. at 991.
Plaintiff made this same argument in the briefing on
the motions for summary judgment as well as at the
hearing on those motions. Accordingly, the standards
of Local Rule 7-18 have not been met.
Furthermore, Unicolors did not change the law or the
standard applied to analyzing inaccurate statements
made in applications for copyright registrations.

App. 97
Unicolors relied on Urantia Foundation, L.A. Printex
and 17 U.S.C. § 411(b)(1) for its analysis of these
principles. These are the same cases and statutory
framework applied in the prior Order. Consequently,
there has been no intervening change in controlling law
that warrants reconsideration under Local Rule 7-18
and Fed. R. Civ. P. 59(e).
Finally, Unicolors confirms that, as the prior Order
concluded, an inaccurate copyright registration bars an
infringement action when “‘the inaccurate information
was included on the application [ ...] with knowledge
that it was inaccurate’ and the inaccuracy, ‘if known,
would have caused the Register of Copyrights to refuse
registration.’” Unicolors, 853 F.3d at 991 (quoting 17
U.S.C. § 411(b)(1)). Unicolors is also consistent with the
conclusion in the prior Order that when a mistake is
inadvertent, a clerical error or made in good faith, i.e.,
when an error is made without knowledge that it was
inaccurate, then it will not result in the invalidation of
the registration, absent a showing of fraud on the
Copyright Office. This analysis is premised on the
requirements of 17 U.S.C. § 411(b)(1). Id. As the prior
Order concluded, Plaintiff’s mistake was not
“inadvertent.” Nor was it a “misstatement or clerical
error.” Id. (quoting Urantia Found., 114 F.3d 955, 963
(9th Cir. 1997) and L.A. Printex, 676 F.3d at 853). It
was made knowingly. Thus, the framework of 17 U.S.C.
§ 411(b) applies.
For the foregoing reasons,
Reconsideration is DENIED.

the

Motion

for

App. 98
IV. Conclusion
For the reasons stated in this Order, Defendants’
Motion is GRANTED and Plaintiff’s Motion for
Summary Judgment is DENIED. Plaintiff’s Motion for
Reconsideration is DENIED. On or before May 19,
2017, Defendants shall meet and confer with Plaintiff
to seek agreement as to the form of judgment. The
proposed judgment shall be lodged by May 19, 2017.
The notice shall indicate whether the form of judgment
is agreed upon or whether Plaintiff will be filing any
objections by May 26, 2017, pursuant to the Local
Rules.
IT IS SO ORDERED.
__________ : __________
Initials of Preparer ak

App. 99

APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
No. 2:16-cv-00339-JAK (FFMx)
Honorable John A. Kronstadt
United States District Judge
[Filed April 28, 2017]
________________________________
GOLD VALUE INTERNATIONAL )
TEXTILE, INC.,
)
)
Plaintiff,
)
)
v.
)
)
SANCTUARY CLOTHING,
)
LLC, et al.,
)
)
Defendants.
)
________________________________ )
BENJAMIN C. MIZER
Principal Deputy Assistant Attorney General
SANDRA R. BROWN
Acting United States Attorney
DOROTHY A. SCHOUTEN
Assistant United States Attorney
Chief, Civil Division

App. 100
ROBYN-MARIE LYON MONTELEONE
Assistant United States Attorney
Chief, General Civil Section
MONICA L. MILLER (Cal. Bar No. 157695)
Assistant United States Attorney
Federal Building, Suite 7516
300 North Los Angeles Street
Los Angeles, California 90012
Telephone: (213) 894-4061
Facsimile: (213) 894-7819
E-mail: monica.miller@usdoj.gov
Attorneys for NON-PARTY
U.S. COPYRIGHT OFFICE
RESPONSE OF THE REGISTER OF
COPYRIGHTS TO REQUEST PURSUANT TO
17 U.S.C. § 411(b)(2)
The U.S. Copyright Office (“Copyright Office”), by
and through its undersigned counsel, hereby responds
to the question posed in the Order dated March 24,
2017 [Dkt. No. 116].
This case appears to be a copyright infringement
action in which an issue has arisen regarding what
effect, if any, allegedly inaccurate information would
have had on the Copyright Office’s issuance of a
copyright registration. Under 17 U.S.C. § 411(b)(2), the
Court is required to request the Copyright Office’s
advice on the question posed in the Court’s order. The
answer of the Register of Copyrights to the question
posed by the Court is attached as Exhibit A.
Dated: April 27, 2017.

App. 101
Respectfully submitted,
SANDRA R. BROWN
Acting United States Attorney
DOROTHY A. SCHOUTEN
Assistant United States Attorney
Chief, Civil Division
ROBYN-MARIE LYON MONTELEONE
Assistant United States Attorney
Chief, General Civil Section
/s/ Monica L. Miller
MONICA L. MILLER
Assistant United States Attorney
Attorneys for NON-PARTY
U.S. COPYRIGHT OFFICE

App. 102
EXHIBIT A
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. 2:16-cv-00339-JAK FFM
________________________________
GOLD VALUE INTERNATIONAL )
TEXTILE, INC.,
)
)
Plaintiff,
)
)
v.
)
)
SANCTUARY CLOTHING,
)
LLC, et al.,
)
)
Defendants.
)
________________________________ )
RESPONSE OF THE REGISTER OF
COPYRIGHTS TO REQUEST PURSUANT TO
17 U.S.C. § 411(b)(2)
On March 24, 2017, pursuant to 17 U.S.C. § 411(b)(2),
the Court requested advice from the Register of
Copyrights (“Register”) by May 1, 2017, on the
following question (the “Request”):
Would the Register of Copyrights have rejected
Plaintiff’s Registration No. VAu 1-151-509 for 2dimensional artwork (“Grp.029-Spring/Summer
2014,” filed October 24, 2013) with respect to
Design 1461? Thus, would it have done so if, at
the time of the application, the Register of
Copyrights had known that, although Plaintiff

App. 103
had characterized the work as an unpublished
collection that included the 1461 Design,
Plaintiff previously had published the 1461
Design when it sold to its customers fabric
samples that used the 1461 Design, without
limiting further distribution or sale by those
customers?1
The Register hereby submits her response.
BACKGROUND
A review of the Copyright Office’s records shows the
following:
On October 24, 2013, the U.S. Copyright Office
(“Copyright Office” or “Office”) received an application
to register a collection of two-dimensional artwork
collectively titled “Grp.029-Spring/Summer 2014.” The
application listed 34 individual titles, including “1461 Crochet emb.” (“1461 Design”), which is the subject of
this Request. The application identified “Gold Value
Int’l. Textile, Inc.”, as the work-made-for-hire author
and copyright claimant of the two-dimensional
artwork. The application stated that the collection was
created in 2013, and that it was unpublished. The
application did not state that any of the individual
works contained in the collection had been previously
published. The Office registered the collection with an
effective date of registration (“EDR”)2 of October 24,

1

2

Request at 2-3.

The EDR is the date that the Office received a completed
application, the correct deposit copy, and the proper filing fee.

App. 104
2013, and assigned registration number VAu 1-151509. Based on the information provided in the
application, the Office had no reason to question the
representations in the application and accepted them
as true and accurate.3
In the Order accompanying the Request, the Court
found that Plaintiff’s “actions constitute[d] publication
as a matter of law because Plaintiff sold fabric with the
1461 Design to its customers,” and that “Plaintiff knew
that the statement in the application as to the date of
publication of the 1461 Design was inaccurate.”4 The
Court has requested the Register to consider whether,
given this information, the Office would have refused
to register the claim.

3

The principles that govern how the Office examines registration
applications are found in the Compendium of U.S. Copyright Office
Practices, Third Edition. One such principle is that the Office
generally “accepts the facts stated in the registration materials,
unless they are contradicted by information provided elsewhere in
the registration materials or in the Office’s records.” Additionally,
“the Office does not conduct investigations or make findings of fact
to confirm the truth of any statement made in an application.”
COMPENDIUM (THIRD) § 602.4(D). The application for
registration number VA 1-151-509 was filed in 2013. The
governing principles that the Office would have applied at the time
of application are set forth in the Compendium of U.S. Copyright
Office Practices, Second Edition. Throughout this response,
however, the Office cites the third edition of the Compendium
because the relevant practices have not materially changed.

4

Order on Defs’ Mot. for Summ. J.; Pl.’s Mot. for Summ.
Adjudication as to Liability for Copyright Infringement,
Willfulness, and Infringing Revenues at 6, 10 (Mar. 24, 2017).

App. 105
ANALYSIS
An application for copyright registration must comply
with the requirements of the Copyright Act set forth in
17 U.S.C. §§ 408(a), 409, and 410. Regulations
governing applications for registration are codified in
title 37 of the Code of the Federal Regulations at 37
C.F.R. §§ 202.1 to 202.21(2016). The principles that
govern how the Office examines registration
applications are found in the Compendium of U.S.
Copyright Office Practices, Third Edition
(“Compendium”) The statutory requirements,
regulations, and Compendium practices most relevant
to the Court’s request are as follows:
In pertinent part, under the Copyright Act, works may
be published via the “distribution of copies or
phonorecords of a work to the public by sale or other
transfer of ownership, or by rental, lease or lending.”5
The Act, additionally, provides that “ [t]he offering to
distribute copies or phonorecords to a group of persons
for purposes of further distribution, public
performance, or public display, constitutes
publication.”6 The Compendium illustrates that
“[p]ublication occurs when fabric, carpet, or wallpaper
samples are offered to sales representatives for the
purpose of selling those works to wholesalers and
retailers.”7 In applying this latter provision when
carrying out its registration functions, the Copyright
5

17 U.S.C. § 101 (definition of “publication”).

6

17 U.S.C.§ 101 (definition of “publication”).

7

COMPENDIUM (THIRD)§ 1906.1.

App. 106
Office understands the actual distribution of (in
addition to the mere “offering to distribute”) copies or
phonorecords to a group of persons for the enumerated
purposes also to constitute a publication.8
An unpublished collection is “[a] registration
accommodation by the U.S. Copyright Office for
registering a number of unpublished works with one
application, one filing fee, and one set of deposit
copies.”9 The Office will generally “issue a registration
if some of the works set forth in the deposit[] [for an
unpublished collection] contain a sufficient amount of
original authorship.”10 Works registered under the
unpublished collection option may thus contain both
copyrightable and uncopyrightable material;11 the
registration, however, only extends to copyrightable

8

See PAUL GOLDSTEIN, GOLDSTEIN ON COPYRIGHT 3.3.2 (3d ed.
Supp. 2011) (noting that the “better” reading of the statute “would
make publication occur at the earliest point—the date of an offer
to distribute or the date of actual distribution—at which the
copyright owner placed its work in the channels of commerce”).

9

COMPENDIUM (THIRD) Glossary.

10

11

COMPENDIUM (THIRD) § 1108.

COMPENDIUM (THIRD) § 1108 (“As a general rule, the U.S.
Copyright Office will issue a registration if some of the works set
forth in the deposit[] contain a sufficient amount of original
authorship [; if] the registration specialist determines that the
deposit[] contain[s] material that is copyrightable and material
that is clearly uncopyrightable, he or she may register the claim
without communicating with the applicant.”).

App. 107
works. In addition, the unpublished collection option
may not be used to register published works.12
The Copyright Office’s regulations require applicants
to make “[a] declaration that information provided
within the application is correct to the best of [the
applicant’s] knowledge.”13 Generally, the Office “accepts
the facts stated in the registration materials, unless
they are contradicted by information provided
elsewhere in the registration materials or in the
Office’s records.”14
In responding to the Court’s question, the Office
applies the foregoing governing statutory and
regulatory standards, and examining principles.
Based on the foregoing governing statutory and
regulatory standards, and its examining practices, had
the Office been aware that the 1461 Design had been
previously published, the Office would have refused
12

COMPENDIUM (THIRD) § 1106.1 (“All of the copyrightable
elements that are otherwise recognizable as self-contained works
must be unpublished . . . Works that do not satisfy these
requirements cannot be registered as an unpublished collection. In
particular, an applicant cannot use this option to register a
number of published and unpublished works. If any of the works
have been published, the applicant should not include those works
in the claim.”).
13

14

37 C.F.R. § 202.3(c)(2)(iii).

COMPENDIUM (THIRD) §§ 602.4(D), 612.3 (“As a general rule, the
Office will accept the applicant’s representation that the work is
published or unpublished, unless that statement is implausible or
is contradicted by information provided elsewhere in the
registration materials.”).

App. 108
registration of that work using the unpublished
collections option because the work was registered as
unpublished when in fact it had been published.
The Office notes, however, that it is not unusual for the
examiner to correspond with an applicant about factual
assertions if the assertions appear to conflict with other
information provided in the application materials.15
Accordingly, if the Office becomes aware of an error at
the time of application, such as whether the work was
published, or has questions about facts asserted in the
application, it provides the applicant an opportunity to
correct the error or verify the facts within a specified
period of time.16 If the applicant responds in a timely
fashion to the satisfaction of the Office, the Office can
proceed with the registration. The Register’s response
herein is thus premised on the fact that the error
identified in the Court’s question was not timely
corrected through such a process.
Dated: April 25, 2017
/s/Karyn Temple-Claggett
Karyn Temple-Claggett
Acting Register of Copyrights

15

16

COMPENDIUM (THIRD) § 602.4(D).

Generally, an applicant has 20 calendar days to respond via
email, and 45 calendar days to respond via U.S. mail to questions
concerning issues in the application materials. See
COMPENDIUM (THIRD) §§ 605.6(B), 605.6(D).

App. 109

APPENDIX G
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. 2:16-cv-00339-JAK-FFM
[Filed March 24, 2017]
________________________________
GOLD VALUE INTERNATIONAL )
TEXTILE, INC.,
)
)
Plaintiff,
)
)
v.
)
)
SANCTUARY CLOTHING,
)
LLC, et al.,
)
)
Defendants.
)
________________________________ )
REQUEST TO THE REGISTER
OF COPYRIGHTS
PURSUANT TO 17 U.S.C. § 411(b)(2)
Gold Value International Textile, Inc. (“Plaintiff”)
brought this action for copyright infringement in which
it named the following defendants: Sanctuary Clothing
LLC (“Sanctuary”); Amazon.com, Inc.; Bloomingdale’s,
Inc.; Dillard’s, Inc.; Macy’s, Inc.; Nordstrom, Inc. and
Zappos IP, Inc. (collectively, “Defendants”). The
Complaint alleges that Plaintiff created and owns the

App. 110
copyright in a two-dimensional textile design, which is
titled 1461-43 (“1461 Design”). The Complaint alleges
that Sanctuary created and sold to the other
defendants garments bearing a design substantially
similar to the 1461 Design, and that these defendants
resold these items to their customers.
In response to the claims, Defendants have
challenged the validity of the underlying Copyright
Registration No. VAu 1-151-509 for 2-dimensional
artwork (“Grp.029-Spring/Summer 2014”). They
contend that Plaintiff knowingly submitted inaccurate
information when it filed its application for this
copyright on October 24, 2013. Based on this premise,
they argue that, but for the submission of this
information, the Register of Copyrights would have
refused registration.
In a related order (“Related Order” (Dkt. 115)) with
respect to “Defendants’ Motion for Summary Judgment
(Dkt. 57) and Plaintiff’s Motion for Summary
Adjudication as to Liability for Copyright Infringement,
Willfulness, and Infringing Revenues (Dkt. 72), the
Court has determined that the Plaintiff knowingly
submitted inaccurate information in connection with
its application for the aforementioned copyright.
Specifically, Plaintiff’s application stated that there
was no prior publication of the 1461 design, which was
presented as part of a collection of images. However,
the 1461 design itself had been published previously.
The details as to these findings are set forth in the
Related Order, a copy of which is attached as Exhibit
1 to this Order.

App. 111
In light of the findings in the Related Order,
pursuant to 17 U.S.C. § 411(b)(2), the Court requests a
response by the Register of Copyrights to the following
inquiry:
Would the Register of Copyrights have rejected
Plaintiff’s Registration No. VAu 1-151-509 for 2dimensional artwork (“Grp.029-Spring/Summer
2014,” filed October 24, 2013) with respect to
Design 1461? Thus, would it have done so if, at
the time of the application, the Register of
Copyrights had known that, although Plaintiff
had characterized the work as an unpublished
collection that included the 1461 Design,
Plaintiff previously had published the 1461
Design when it sold to its customers fabric
samples that used the 1461 Design, without
limiting further distribution or sale by those
customers?
The Court requests a response to these matters on or
before May 1, 2017. The Clerk of Court shall send this
Request, including Exhibit 1, to the Register of
Copyrights.
IT IS SO ORDERED.
Dated: March 24, 2017
/s/John A. Kronstadt
JOHN A. KRONSTADT
United States District Judge

App. 112

APPENDIX H
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. LA CV16-00339 JAK (FFMx)
[Filed March 24, 2017]
___________________________________
Gold Value International Textile, Inc. )
)
v.
)
)
Sanctuary Clothing, LLC, et al.
)
___________________________________ )
CIVIL MINUTES – GENERAL
Present: The Honorable JOHN A. KRONSTADT,
UNITED STATES DISTRICT JUDGE
Andrea Keifer
Deputy Clerk

Not Reported
Court Reporter / Recorder

Attorneys Present for Plaintiffs: Not Present
Attorneys Present for Defendants: Not Present
Proceedings: (IN CHAMBERS) DEFENDANTS’
MOTION FOR SUMMARY
JUDGMENT
(DKT.
57);
PLAINTIFF’S MOTION FOR
SUMMARY ADJUDICATION AS
TO LIABILITY FOR COPYRIGHT
INFRINGEMENT, WILLFULNESS,

App. 113
AND INFRINGING REVENUES
(DKT. 72)
I. Introduction
Gold Value International Textile, Inc. (“Plaintiff”)
brought this action for copyright infringement against
Sanctuary Clothing LLC (“Sanctuary”), Amazon.com,
Inc., Bloomingdale’s, Inc., Dillard’s, Inc., Macy’s, Inc.,
Nordstrom, Inc. and Zappos IP, Inc. (collectively,
“Defendants”). On March 14, 2016, Sanctuary brought
a counterclaim against Plaintiff, seeking the
invalidation of Plaintiff’s copyright. Dkt. 37.
On November 18, 2016, Defendants filed a Motion for
Summary Judgment (“Defendants’ Motion”) as to all
claims in the Complaint and Counterclaim. Dkt. 57.
Plaintiff opposed Defendants’ Motion (Dkt. 60), and
Defendants replied. Dkt. 65. On February 17, 2017,
Plaintiff filed a Motion for Summary Judgment
(“Plaintiff’s Motion”). Dkt. 72. Defendants opposed
Plaintiff’s Motion (Dkt. 93), and Plaintiff replied. Dkt.
99.
On March 13, 2017, a hearing on the Motions was held,
and they were taken under submission. Dkt. 110. For
the reasons stated in this Order, a final determination
of the Motions is DEFERRED pending a response
from the Register of Copyrights to an inquiry by the
Court that is discussed in this Order.

App. 114
II. Factual Background
A. The Parties
Plaintiff is a California corporation that creates designs
for use on fabric and sells fabric to its customers. Those
customers then use the fabric to manufacture garments
that are sold to retailers. Dkt. 1 ¶ 4; Declaration of
Morris Ajnassian (“Ajnassian Decl.”), Dkt. 60-1 ¶ 2.
Sanctuary is a California LLC that manufactures
garments. The remaining Defendants are retailers who
have purchased garments from Sanctuary and resold
them to customers. Amazon.com is a Washington
corporation, Bloomingdale’s is a New York corporation,
Dillard’s is an Arkansas corporation, Macy’s is an Ohio
corporation, Nordstrom is a Washington corporation
and Zappos is a Nevada corporation. Dkt. 1 ¶¶ 5-11.
B. The Copyright Registrations
The Complaint alleges that Plaintiff created and owns
the copyright in a two-dimensional textile design titled
1461-43 (“1461 Design”). Dkt. 1 ¶¶ 15-16. This design
was allegedly registered with the Copyright Office. Id.
¶ 17. The Complaint alleges that without its
authorization, Sanctuary created, sold, manufactured,
caused to be manufactured and distributed garments
that are made from fabric that features designs
identical or substantially similar to the 1461 Design.
Those sales have been to retailers, including the
remaining Defendants, who resold them to consumers.
Id. ¶¶ 19-20. In the Form AO 121: Report on the Filing
or Final Determination of an Action or Appeal
Regarding a Copyright, Plaintiff identified Copyright

App. 115
Registration No. VAu 1-151-509 (“‘509 Registration”) as
the only registration at issue in this action. Dkt. 4.
The ‘509 Registration has an effective date of October
24, 2013. Declaration of Jessica S. Rutherford
(“Rutherford Decl.”), Ex. A, Dkt. 57-2 (‘509
Registration). Defendants’ Statement of Undisputed
Facts (“UF”), Dkt. 60-7 ¶ 7. The ‘509 Registration
includes 34 works; the 1461 Design is one of them.
Rutherford Decl., Ex. A, Dkt. 57-2. In the application
for the copyright that resulted in this registration,
Plaintiff’s president, Morris Ajnassian, certified that
none of the works in the collection had been published
as of October 23, 2013. UF ¶ 7.
On June 9, 2016, the Copyright Office issued to
Plaintiff Copyright Registration No. VA 2-006-252
(“‘252 Registration”) for a single work titled “1461.”
Rutherford Decl., Ex. C, Dkt. 57-4 (‘252 Registration).
The ‘252 Registration states that the “Date of 1st
Publication” is “March 12, 2013.” Id. The ‘252
Registration does not state that it is a supplementary
registration. Id.
III. Analysis
A. Legal Standard
A motion for summary judgment will be granted where
“the pleadings, depositions, answers to interrogatories,
and admissions on file, together with the affidavits, if
any, show that there is no genuine issue as to any
material fact and that the moving party is entitled to a
judgment as a matter of law.” Fed. R. Civ. P. 56(c). The
party seeking summary judgment bears the initial
burden to show the basis for its motion and to identify

App. 116
those portions of the pleadings and discovery responses
that demonstrate the absence of a genuine issue of
material fact. See Celotex Corp. v. Catrett, 477 U.S. 317,
322 (1986). Where the moving party will have the
burden of proof on an issue at trial, it must
affirmatively demonstrate that no reasonable trier of
fact could find for any non-moving party on such issues.
Where the nonmoving party will have the burden of
proof on an issue, however, the movant need only
demonstrate that there is an absence of evidence to
support the claims of the nonmoving party. See id. If
the moving party meets its initial burden, the
nonmoving party must set forth “specific facts showing
that there is a genuine issue for trial.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 250 (1986); Fed. R.
Civ. Proc. 56(e).
Only admissible evidence may be considered in
connection with a motion for summary judgment. Fed.
R. Civ. P. 56(e). However, in considering such a motion,
a court is not to make any credibility determinations or
weigh conflicting evidence. All inferences are to be
drawn in the light most favorable to the nonmoving
party. See T.W. Elec. Serv., Inc. v. Pac. Elec.
Contractors Ass’n, 809 F.2d 626, 630-31 (9th Cir. 1987).
However, conclusory, speculative testimony in
declarations or other evidentiary materials is
insufficient to raise genuine issues of fact and defeat
summary judgment. See Thornhill Publ’g Co., Inc. v.
GTE Corp., 594 F.2d 730, 738 (9th Cir. 1979).
B. Application
Defendants argue that summary judgment should be
granted because the ‘509 Registration is invalid. As a

App. 117
result, Defendants argue, Plaintiff does not have a
valid copyright registration, which “is a precondition to
filing a claim” for copyright infringement. Reed
Elsevier, Inc. v. Muchnick, 559 U.S. 154, 157 (2010).
Defendants argue that the ‘509 registration is invalid,
at least as to the 1461 Design, because it is a
registration for a collection of unpublished works, and
the 1461 Design was published before the ‘509
Registration issued. Defendants add that, although
Plaintiff’s later obtained the ‘252 Registration that
covers the 1461 Design as a published work, this
registration cannot support Plaintiff’s claim because it
never amended the Complaint to put that registration
at issue notwithstanding that it had the opportunity to
do so.
1. Requirements for Copyright Registration
Registration of a copyright with the United States
Copyright Office is not a condition for copyright
ownership. It is, however, generally a prerequisite to
the filing of a civil action for infringement, subject to
certain exceptions. See 17 U.S.C. § 411(a).1 The
registration requirement is not jurisdictional. See Reed
Elsevier, 559 U.S. at 166. However, “[c]opyright
registration is a precondition to filing a copyright
infringement action.” L.A. Printex Indus., Inc. v.
Aeropostale, Inc., 676 F.3d 841, 852 (9th Cir. 2012), as
amended on denial of reh’g and reh’g en banc (June 13,

1

For example, 17 U.S.C. § 411(a) allows a plaintiff to file a civil
action as to rights of attribution and integrity under 17 U.S.C.
§ 106A(a), even if the underlying copyright has not been registered.
However, such rights are not at issue in this action.

App. 118
2012). Congress limited the availability of certain
remedies in copyright infringement actions. These
include statutory damages and an award of attorney’s
fees. 17 U.S.C. § 412 provides that
no award of statutory damages or of attorney’s
fees . . . shall be made for--(1) any infringement
of copyright in an unpublished work commenced
before the effective date of its registration; or
(2) any infringement of copyright commenced
after first publication of the work and before the
effective date of its registration, unless such
registration is made within three months after
the first publication of the work.
“A copyright registration is ‘prima facie evidence of the
validity of the copyright and the facts stated in the
certificate.’” United Fabrics Int’l, Inc. v. C&J Wear,
Inc., 630 F.3d 1255, 1257 (9th Cir. 2011) (quoting 17
U.S.C. § 410(c)). “To rebut the presumption [of
validity], an infringement defendant must simply offer
some evidence or proof to dispute or deny the plaintiff’s
prima facie case of infringement.” Id. (quoting Lamps
Plus, Inc. v. Seattle Lighting Fixture Co., 345 F.3d
1140, 1144 (9th Cir. 2003)). As the Ninth Circuit has
explained:
“A certificate of registration satisfies the
[registration requirement], regardless of
whether the certificate contains any inaccurate
information,” unless (1) “the inaccurate
information was included on the application for
copyright registration with knowledge that it
was inaccurate,” and (2) “the inaccuracy of the

App. 119
information, if known, would have caused the
Register of Copyrights to refuse registration.”
L.A. Printex, 676 F.3d at 852-53 (quotations of 17
U.S.C. § 411(b)(1) in original).
As this language shows, these standards apply to
knowing misstatements. In contrast, the Ninth Circuit
has held that “inadvertent mistakes on registration
certificates do not invalidate a copyright and thus do
not bar infringement actions, unless the alleged
infringer has relied to its detriment on the mistake, or
the claimant intended to defraud the Copyright Office
by making the misstatement.” Urantia Found. v.
Maaherra, 114 F.3d 955, 963 (9th Cir. 1997). “A
copyright owner may file an application for
supplementary registration ‘to correct an error in a
copyright registration or to amplify the information
given in a registration.’” L.A. Printex, 676 F.3d at 853
(quoting 17 U.S.C. § 408(d); 37 C.F.R. § 201.5).
“The Copyright Act expressly authorizes the Register
to prescribe by regulation the conditions and
procedures for the registration of copyrights and the
applications for registration.” Olander Enters., Inc. v.
Spencer Gifts, LLC, 812 F. Supp. 2d 1070, 1075 (C.D.
Cal. 2011) (citing 17 U.S.C. §§ 408(c)(1), 409 (2006)).
“According to the registration regulations, typically a
copyright claimant must file a separate application to
obtain a separate registration for each creative work
for which the claimant seeks protection.” Id. As L.A.
Printex explained:
The Copyright Act permits the registration of
multiple works as a single work. 17 U.S.C.

App. 120
§ 408(c)(1). For purposes of registration as a
single work, copyright regulations distinguish
between published works and unpublished
works. See 37 C.F.R. § 202.3(b)(4)(i). A published
collection of works must be “sold, distributed or
offered for sale concurrently.” United Fabrics
Int’l, Inc. v. C & J Wear, Inc., 630 F.3d 1255,
1259 (9th Cir. 2011). For unpublished works,
“there is no such requirement.” Id. A group of
unpublished works may be registered as a single
work if it consists of “all copyrightable elements
that are otherwise recognizable as self-contained
works, and are combined in a single unpublished
‘collection.’” 37 C.F.R. § 202.3(b)(4)(i)(B).
676 F.3d at 853.
37 C.F.R. § 202.3(b)(4) sets forth the following
requirements for registering a collection as a single
work:
(i) For the purpose of registration on a single
application and upon payment of a single
registration fee, the following shall be
considered a single work:
(A) In the case of published works: all
copyrightable elements that are otherwise
recognizable as self-contained works, that
are included in a single unit of publication,
and in which the copyright claimant is the
same; and
(B) In the case of unpublished works: all
copyrightable elements that are otherwise
recognizable as self-contained works, and are
combined in a single unpublished

App. 121
“collection.” For these purposes, a
combination of such elements shall be
considered a “collection” if:
(1) The elements are assembled in an
orderly form;
(2) The combined elements bear a single
title identifying the collection as a whole;
(3) The copyright claimant in all of the
elements, and in the collection as a whole,
is the same; and
(4) All of the elements are by the same
author, or, if they are by different
authors, at least one of the authors has
contributed copyrightable authorship to
each element.
Registration of an unpublished “collection”
extends to each copyrightable element in the
collection and to the authorship, if any, involved
in selecting and assembling the collection.
A work is “published” for purposes of the Copyright Act
when copies are distributed “to the public by sale or
other transfer of ownership, or by rental, lease or
lending” or offered to be distributed “to a group of
persons for purposes of further distribution, pubic
performance, or public display.” 17 U.S.C. § 101.
2. Application
a) The Positions of the Parties
Defendants argue that the ‘509 Registration of a
collection of unpublished images, which includes the
1461 Design, is invalid as to that design as a matter of

App. 122
law. The basis for this claim is that the 1461 Design
had been published prior to the issuance of the ‘509
Registration, whose effective date is October 24, 2013.
UF ¶ 7. Defendants contend that the 1461 Design was
first published on March 12, 2013, more than seven
months prior to the date of the application for the ‘509
registration. UF ¶ 8. Because the ‘509 Registration is
the only one identified in the operative complaint,
Defendants argue that summary judgment should be
granted. Defendants argue that both elements of the
test for an invalid registration under 17 U.S.C. § 411(b)
are met. Thus, they claim that there is no issue of fact
as to whether Plaintiff knew that the information in
the registration was inaccurate, and that this error
would have caused the Copyright Office to reject the
application for registration. See 17 U.S.C. § 411(b).
Plaintiff responds that, even if such an error could be
shown, the ‘509 Registration is still valid as to the 1461
Design. It contends that any error was inadvertent,
and that the applicable standard requires a showing
that Plaintiff defrauded the Copyright Office with
respect to any prior publication of the 1461 Design.
Plaintiff contends that Defendants have not presented
evidence that would support such a determination on
the present motions for summary judgment. In the
alternative, Plaintiff argues that the subsequent ‘252
Registration for the 1461 Design is a sufficient basis for
the claims that have been brought.2

2

In its Opposition, Plaintiff made its first request for leave to
amend the Complaint. In an amended complaint, Plaintiff would
include the ‘252 Registration as a basis for infringement. If it is
determined that the ‘509 Registration is invalid, Plaintiff cannot

App. 123
b) Knowledge of Inaccuracy
To invalidate the ‘509 Registration as to the 1461
Design, Defendants must first demonstrate that “the
inaccurate information was included on the application
for copyright registration with knowledge that it was
inaccurate.” 17 U.S.C. § 411(b)(1). Defendants argue
that the evidence shows that there is no triable issue as
to whether Plaintiff’s inclusion of the inaccurate
information was inadvertent. Defendant claims that it
was not because, at the relevant time, Plaintiff knew
that it had previously published the 1461 Design
notwithstanding its contrary statement in the
application for the ‘509 Registration.
Defendant has presented evidence, which is not
disputed, that Plaintiff sold samples of the 1461 Design
in March 2013. This was before Plaintiff included the
1461 Design in the unpublished collection ‘509
Registration. Defendant contends that these prior sales
constituted publication as a matter of law. Plaintiff
disagrees, claiming that the sale of these samples was
very limited.3

pursue this action with respect to the ‘252 Registration absent
such an amendment. An analysis of the substantive and
procedural issues raised by Plaintiff’s request is DEFERRED
until the issuance of the final order on the Motions.
3

Plaintiff also argues that, as to the registration of a collection, the
statute requires only that the collection as a whole was not
previously published. From this it argues that there was no error
in the application. Plaintiff cites no authority for this proposition,
and the Court has found none.

App. 124
Under the Copyright Act a work is deemed published
when copies of it are distributed to the public “by sale
or other transfer of ownership, or by rental, lease or
lending” or offered to be distributed “to a group of
persons for purposes of further distribution.” 17 U.S.C.
§ 101. “A public performance or display of a work does
not of itself constitute publication.” Id. “To ‘display’ a
work means to show a copy of it, either directly or by
means of a film, slide, television image, or any other
device or process.” Id. “Publication occurs when fabric,
carpet, or wallpaper samples are offered to sales
representatives for the purpose of selling those works
to wholesalers and retailers.” U.S. Copyright Office,
Compendium of U.S. Copyright Practices § 1906.01 (3d
ed. 2014) [hereinafter, Compendium III].4

4

Plaintiff objects to Defendants’ reliance on the Circular and
Compendium of the Copyright Office. Plaintiff argues that these
documents are nonbinding interpretations used internally by the
Copyright Office. Defendants do not argue that the Circular and
Compendium constitute binding legal authority. Instead, they
argue that these materials are persuasive examples of what the
Copyright Office does when presented with certain issues, and for
that reason warrant some deference by the Court. The Ninth
Circuit has held that deference to the Register of Copyright’s
interpretations of the copyright statutes, may be appropriate. See
Richlin v. Metro–Goldwyn–Mayer Pictures, Inc., 531 F.3d 962, 973
(9th Cir. 2008) (“We have held that courts should generally defer
to the Register of Copyright’s (‘Register’) interpretation of the
copyright statutes, as [t]he Register has the authority to interpret
the copyright laws and ... its interpretations are entitled to judicial
deference if reasonable.” (internal quotation marks omitted)
(alterations in original)). The rulings on Plaintiff’s evidentiary
objections, which include objections to Defendant’s reliance on
these materials (Dkt. 95), are set forth in a separate Order. See
Dkt. 114.

App. 125
The witness designated by Plaintiff pursuant to Fed. R.
Civ. P. 30(b)(6), testified that Plaintiff knew that it had
previously sold samples of the 1461 Design when it
applied for the ‘509 Registration. Rutherford Decl., Ex.
F, Dkt. 65-2 (Rule 30(b)(6) Depo. 157:15-158:3).
Further, Plaintiff’s principal has declared that “[b]efore
the 1461 Design was registered with the Copyright
Office, [Plaintiff] provided samples of fabric bearing the
design to a limited group of existing and potential
customers for the limited purpose of securing full
production contracts for hundreds or thousands of
yards of fabric.” Ajnassian Decl., Dkt. 60-1 ¶ 5.5
Plaintiff sent 16 invoices to several of its customers.
Each reflects that samples that used the 1461 Design
were sold and delivered to these customers between
March 12, 2013 and October 16, 2013. Ajnassian Decl.,
Ex. 4, Dkt. 70-2. These actions constitute publication as
a matter of law because Plaintiff sold fabric with the
1461 Design to its customers. The purpose of selling
these samples was to “secur[e] full production contracts
for hundreds or thousands of yards of fabric.” Ajnassian
Decl., Dkt. 60-1 ¶ 5.
Plaintiff’s argument that it did not believe selling
samples constituted publication is not persuasive. It
contends that, because it only distributed
approximately190 yards of fabric through the sales of
samples of the fabric, this action did not constitute

5

Defendant filed objections with respect to the evidence that was
presented. Dkt. 66. Rulings on these objections are set forth in a
separate order. Dkt. 112. Only evidence that has been deemed
admissible has been considered in connection with the matters
addressed in this Order.

App. 126
publication under the limited publication test. White v.
Kimmell, 193 F.2d 744, 746-47 (9th Cir. 1952).
However, the evidence shows that there is no triable
issue of fact as to whether Plaintiff could satisfy the
requirements of a limited publication. It cannot.
A publication is deemed limited where the work was
distributed “(1) to a ‘definitely selected group,’ and
(2) for a limited purpose, [(3)] without the right of
further reproduction, distribution or sale.” Id. “All
three of the enumerated elements must exist or else
the distribution may not be deemed limited and the
copyright will not be valid.” Milton H. Greene Archives,
Inc. v. BPI Commc’ns, Inc., 378 F. Supp. 2d 1189, 1198
(C.D. Cal. 2005) (citation and alteration omitted).
The requirements for the limited publication test
cannot be met here. Thus, there is no triable issue as to
whether the distribution of the samples was made
“without the right of further reproduction, distribution
or sale.” White, 193 F.2d at 747.6 It was not. Plaintiff
argues that this limitation has been shown because it
included an explicit prohibition against further

6

Once publication has been shown, as it has been here, Plaintiff
has the burden to show that the publication was limited and not
general. Acad. of Motion Picture Arts & Scis. v. Creative House
Promotions, Inc., 944 F.2d 1446, 1452 (9th Cir. 1991); see also
Penguin Books U.S.A., Inc. v. New Christian Church of Full
Endeavor, Ltd., 288 F. Supp. 2d 544, 556 (S.D.N.Y. 2003) (“Once a
distribution or publication without notice of copyright prior to
copyright registration has been established, the burden of proof
shifts to the plaintiff, the holder of the copyright, to show that the
publication or distribution of the work was for a limited purpose.”).

App. 127
reproduction, distribution or sale by including the
following warning on its invoices for the samples:
WARNING: All patterns attached hereto are
registered copyrights of Fiesta Fabric. Under
absolutely no circumstances may said patterns
or the individual components of the artwork
contained therein be copied, reproduced,
imitated or altered. Any such unauthorized
and/or illegal copying of said copyrighted
patterns and/or artwork, either by direct or
indirect involvement, will be prosecuted to the
full extent of the law.
Ajnassian Decl., Ex. 4, Dkt. 70-2 (Sample Invoices).
This language does not limit the ability of the
purchaser to distribute or sell the fabric samples
themselves. Instead, it provides notice of Plaintiff’s
copyrighted imagery and prohibits its copying or
reproduction. This is not a limitation on “the right of
further reproduction, distribution or sale” of the
sample, which includes the work. White, 193 F.2d at
747. Further, this same warning language is used on
all of Plaintiff’s invoices, not just those identified as
relating to the sale of samples. See, e.g., Ajnassian
Decl., Ex. 5, Dkt. 75-2 (Invoice for sale of 1,712.10 units
of fabric bearing the 1461 Design to a customer for
$20,973.23 on April 24, 2014). These invoices involve
the sale of large quantities of fabric that is plainly to be
resold or distributed. Therefore, it would be
unreasonable to interpret this common warning as one
that limits the sale or distribution of the samples in a
manner that is different than what applies to the nonsample sales. These conclusions are consistent with the

App. 128
statements made by in the declaration of Plaintiff’s
principal. He states that the invoices in Exhibit 5
reflect the sale of fabric to a customer to use in the
manufacture of garments. Ajnassian Decl., Dkt. 72-1
¶ 7.
For these reasons, there is no evidence of a limitation
on “the right of further reproduction, distribution or
sale” of the work when distributed in the form of
samples. White, 193 F.2d at 747; see also William A.
Graham Co. v. Haughey, 430 F. Supp. 2d 458, 470 (E.D.
Pa. 2006) (requirement was not satisfied when
“customers did not enter into any express agreement
not to redistribute the proposals, and there is no
evidence of any implied agreement”).
Nor can Plaintiff sidestep its publication by referring to
sales of “samples.” Plaintiff relies on Hub Floral Corp.
v. Royal Brass Corp., 454 F.2d 1226 (2d Cir. 1972), for
the proposition that samples do not constitute the
publication of a work. Hub Floral held that the
distribution of 60 samples “to [the copyright holder’s]
salesmen for use in booking orders from its customers”
was a limited publication and did not require statutory
notice pursuant to the Copyright Act of 1909. Id. at
1227. Central to the analysis in Hub Floral was that
the samples, although used for the purpose of
taking orders from dealers, were not sold, nor
had other reproductions yet been produced for
sale or made available to the public. Since [the
copyright holder] was not in a position to
commence realizing the benefits of its unique

App. 129
design and the public had not been provided
with reproductions, there was no publication.
Id. at 1229.
The logical inference of this statement is that if, as
here, the samples had been sold or delivered to
customers, it would have been deemed publication. As
the court noted in distinguishing an earlier district
court decision that found that the distribution of
samples constituted publication, “it is unclear from
that decision whether there had been a sale of specific
items to plaintiff’s customers, which, of course, would
constitute a publication.” Id. at 1229 n.5.
As noted above, it is undisputed that Plaintiff sold
samples to its customers and did not simply provide
them to its salespersons so that they could solicit
purchase orders. As Hub Floral acknowledged, “a sale
of specific items to plaintiff’s customers . . . would
constitute a publication.” Id. This conclusion is also
consistent with Compendium III. It observed that
“[p]ublication occurs when fabric, carpet, or wallpaper
samples are offered to sales representatives for the
purpose of selling those works to wholesalers and
retailers.” Compendium III § 1906.01.
Urban Textile leads to the same conclusion as to the
effect of showing, rather than selling, samples to
customers:
It goes without saying customers cannot
purchase Urban’s designs without first “viewing”
them and California Blue cannot resell the
Subject Design without first buying it from
Urban. Urban argues that its actions do not rise

App. 130
to the level of “publication”; instead, its use of
the Subject Design should be likened to a public
display of a work of art or the public
performance of a play. Accessing these designs,
however, is not like viewing a painting or
watching a play. Existing and prospective
customers seek out Urban’s design for the sole
purpose of acquisition; they walk in to Urban’s
studio or request to view their designs with the
intent of reselling it. And by providing access to
the designs, Urban is giving customers not only
the ability to view the designs, but also the
ability to acquire them. Urban is showing a
willingness to enter into a bargain, such that
any reasonable customer would understand the
product as being offered to him or her for sale.
As such, the Court finds that Urban’s actions
constitute an offer to distribute the Subject
Design for the purpose of further distribution,
and thus publication of such.
Urban Textile, Inc. v. Cato Corp., No. 2:14-cv-06967,
2016 WL 6804911, at *4 (C.D. Cal. Apr. 1, 2016).
Finally, that the 1461 Design was published before the
effective date of the ‘509 Registration of October 24,
2013, is confirmed by Plaintiff’s application for the ‘252
Registration. There, Plaintiff’s attorney certified to the
Copyright Office that the date of first publication of the
1461 Design was on March 12, 2013. UF ¶ 9;
Rutherford Decl., Ex. B, Dkt. 57-3.
For the foregoing reasons, Defendants have established
that there is no genuine issue of fact as to whether
Plaintiff published the 1461 Design before the effective

App. 131
date of the ‘509 Registration of October 24, 2013. It did
so. Plaintiff has not met its burden to show a triable
issue as to whether this publication constituted a
limited one.
c) Knowledge as to “Publication” Under the
Copyright Act
A copyright registration that contains inaccurate
information will not be invalidated unless “the
inaccurate information was included on the application
for copyright registration with knowledge that it was
inaccurate.” 17 U.S.C. § 411(b)(1)(A). For the reasons
stated above, it is undisputed that Plaintiff knew that
samples of the 1461 Design had been sold to customers
before it applied for the ‘509 Registration. Nonetheless,
Plaintiff contends that at the time that it filed the
application for the ‘509 Registration, it did not know
that, as a matter of law, the sale of samples to its
customers constituted “publication” under the
Copyright Act. From this, Plaintiff argues that it did
not know that the information in the application as to
any prior publication was inaccurate. Therefore, it
contends that the 17 U.S.C. § 411(b)(1)(A) requirement
is not satisfied. This position as to an “ignorance of the
law,” lacks force.
In the Compendium, the Copyright Office provides that
“all applicants — both foreign and domestic — must
demonstrate that a work satisfies the requirements of
U.S. copyright law to register a work with the Office.”
Compendium III § 1904.1. The Compendium is clear
that “[t]he applicant—not the U.S. Copyright
Office—must determine whether a work is published or
unpublished.” Id. Further, “[d]etermining whether a

App. 132
work is published or unpublished should be based on
U.S. copyright law under Title 17, and it should be
based on the facts that exist at the time the application
is filed with the Office.” Id. The Compendium also
states that “[p]ublication occurs when fabric, carpet, or
wallpaper samples are offered to sales representatives
for the purpose of selling those works to wholesalers
and retailers.” Compendium III § 1906.01.
The Supreme Court has “long recognized the ‘common
maxim, familiar to all minds, that ignorance of the law
will not excuse any person, either civilly or criminally.’”
Jerman v. Carlisle, McNellie, Rini, Kramer & Ulrich
LPA, 559 U.S. 573, 581 (2010) (quoting Barlow v.
United States, 7 Pet. 404, 411, 8 L.Ed. 728 (1833)
(opinion for the Court by Story, J.)); see also Acheson v.
Mariko Kuniyuki, 190 F.2d 897, 898 (9th Cir. 1951)
(recognizing “the ancient rule that ignorance of the law
is no excuse”). “The principle that ignorance of the law
is no defense applies whether the law be a statute or a
duly promulgated and published regulation.” United
States v. Int’l Minerals & Chem. Corp., 402 U.S. 558,
563 (1971).
“[T]he term ‘knowingly’ does not necessarily have any
reference to a culpable state of mind or to knowledge of
the law. As Justice Jackson correctly observed, ‘the
knowledge requisite to knowing violation of a statute is
factual knowledge as distinguished from knowledge of
the law.’” Bryan v. United States, 524 U.S. 184, 192
(1998); see also id. at 193 (“unless the text of the
statute dictates a different result, the term ‘knowingly’
merely requires proof of knowledge of the facts that
constitute the offense.”). “‘Knowingly’ typically refers

App. 133
only to one’s knowledge of the facts that make his
conduct unlawful, not to one’s knowledge of the law.”
RSM, Inc. v. Herbert, 466 F.3d 316, 320 (4th Cir. 2006).
When “knowledge” of something includes knowledge of
the applicable law applies only when Congress has set
that standard in a statute or where a statute, like the
Internal Revenue Code, concerns extremely complex
matters. See Jerman, 559 U.S. at 583 (2010) (“when
Congress has intended to provide a mistake-of-law
defense to civil liability, it has often done so more
explicitly than here.”); cf. Mathews v. Gov’t Employees
Ins. Co., 23 F. Supp. 2d 1160, 1164 (S.D. Cal. 1998) (“In
law, the traditional rule is that ‘ignorance of the law is
no excuse,’ and a requirement of willfulness will only
be read to require specific knowledge of the law in
limited exceptions for highly technical statutes that
otherwise pose a danger of ensnaring individuals
engaged in apparently innocent conduct.”).
Under these longstanding principles, the knowledge
requirement of 17 U.S.C. § 411(b)(1)(A) does not mean
knowledge of the law that applies to the underlying
facts about which Plaintiff was fully informed. It knew
what samples it had sold, to whom these sales were
made and the terms and conditions of the transactions.
Further, the Copyright Office had provided in clear and
coherent language that it is the responsibility of the
applicant to determine whether a work has been
published prior to an application and to make this
determination based on the applicable terms of the
Copyright Act. Therefore, Plaintiff knew that the
statement in the application as to the date of
publication of the 1461 Design was inaccurate. Cf.

App. 134
Ellers, Oakley, Chester & Rike, Inc. v. St. Louis Air
Cargo Servs., Inc., 984 F.2d 1108, 1111-12 (10th Cir.
1993) (party is presumed to have knowledge of the
“requirements of conducting business as a corporation,”
so its “contracts with Defendants are unenforceable due
to its failure to obtain proper certification” because “the
use of the corporate form confers substantial benefits”
and “[i]gnorance of the law . . . is no excuse”); H-D
Michigan Inc. v. Biker’s Dream Inc., No. CV 97-864,
1998 WL 697898, at *11 (C.D. Cal. July 28, 1998) (“By
intentionally placing the Harley-Davidson mark on
motorcycles it knew were assembled without . . .
Harley’s blessing, South County committed an act of
intentional infringement, even if it was unaware of the
precise legal name for its actions.”).
For the foregoing reasons, Defendants have established
that there is no triable issue of fact as to whether
Plaintiff included inaccurate information on its
application for the ‘509 Registration with knowledge
that that information was inaccurate.
d) It is Not Necessary to Show Fraud on the
Copyright Office
Plaintiff argues that the copyright registration should
not be invalidated as to the 1461 Design because
Defendants have not shown that Plaintiff intended to
defraud the Copyright Office or that Defendants
detrimentally relied on this error. Defendants respond
that fraud or reliance only needs to be shown when the
mistake is inadvertent, not when the inaccurate
information was included on the application with
knowledge that it was inaccurate. Defendants are
correct. As L.A. Printex explained:

App. 135
“A certificate of registration satisfies the
[registration requirement], regardless of
whether the certificate contains any inaccurate
information,” unless (1) “the inaccurate
information was included on the application for
copyright registration with knowledge that it
was inaccurate,” and (2) “the inaccuracy of the
information, if known, would have caused the
Register of Copyrights to refuse registration.”
L.A. Printex, 676 F.3d at 852-53 (quoting 17 U.S.C.
§ 411(b)(1)).
A copyright registration may be invalidated even when
the inaccurate information is presented without
scienter. To be sure, “inadvertent mistakes on
registration certificates do not invalidate a copyright
and thus do not bar infringement actions, unless the
alleged infringer has relied to its detriment on the
mistake, or the claimant intended to defraud the
Copyright Office by making the misstatement.”
Urantia Found., 114 F.3d at 963. However, L.A. Printex
made clear that a showing of fraud is not required
when the inaccurate information was knowingly
included on the application, as opposed to being an
inadvertent mistake. See L.A. Printex, 676 F.3d at 854
(“The record, when viewed in the light most favorable
to L.A. Printex, does not demonstrate that L.A. Printex
knowingly included previously published designs in its
application for copyright registration such that the
error was other than an inadvertent mistake, or that
L.A. Printex intended to defraud the Copyright
Office.”).

App. 136
Once again, the principles discussed above as to
ignorance of the law apply. In the context of the
application for the registration that is at issue, Plaintiff
knew all of the relevant facts. Consequently, by failing
to present an application that was consistent with
them under the Copyright Act, Plaintiff knowingly
made a misstatement. Under these facts, there is no
requirement that Plaintiff acted with a fraudulent
intent to deceive the Copyright Office. See
Palmer/kane LLC v. Gareth Stevens Publ’g, No. 1:15CV-7404, 2016 WL 6238612, at *4 (S.D.N.Y. Oct. 24,
2016) (“To the extent that Plaintiff argues that the
statute requires a showing of ‘fraudulent intent’
separate and apart from a showing of knowing
inaccuracy, the Court agrees with Judge Rakoff and
declines to graft this additional requirement onto the
plain statutory text.” (footnote omitted))
Nimmer agrees with this interpretation of the
Copyright Act and the requirements for registration:
The courts generally have been most lenient,
under both the 1909 Act and the current Act,
with respect to any innocent error contained in
an application for a registration certificate.
Simply stated, a misstatement or clerical error
in the registration application, if unaccompanied
by fraud, should neither invalidate the copyright
nor render the registration certificate incapable
of supporting an infringement action. However,
this conclusion pertains only to the extent that
the work in question would still have been
eligible for copyright had the registration
application contained a correct statement of the

App. 137
facts. If the claimant willfully misstates or fails
to state a fact that, if known, might have caused
the Copyright Office to reject the application,
then the registration may be ruled invalid.
Nimmer on Copyrights § 7.20[B][1] (footnotes omitted).
***
For the foregoing reasons, Defendants have shown that
there is no triable issue as to whether the 1461 Design
was published prior to its inclusion as part of the
unpublished collection in the ‘509 Registration. It was.
Defendants have shown that there is no triable issue as
to whether Plaintiff had knowledge of the facts that
formed the basis for this error. Therefore, there is no
issue as to whether this mistake was not inadvertent.
Consequently, the summary judgment standards have
been satisfied as to the first step in determining
whether the ‘509 Registration as to the 1461 Design is
invalid.
e) Whether the Copyright Office Would
Have Refused Registration
The second prong of the test of invalidity requires
Defendants to establish that “the inaccuracy of the
information, if known, would have caused the Register
of Copyrights to refuse registration.” 17 U.S.C.
§ 411(b)(2). Defendants argue that the Copyright Office
would have refused to register the 1461 Design as part
of the unpublished collection in the ‘509 Registration if
it had known that the 1461 Design had been previously
published. The process of potential invalidation is also
governed by 17 U.S.C. § 411(b)(2). That statute
requires that “[i]n any case in which inaccurate

App. 138
information described under paragraph (1) is alleged,
the court shall request the Register of Copyrights to
advise the court whether the inaccurate information, if
known, would have caused the Register of Copyrights
to refuse registration.”
The use of the word “shall” in the statute has been held
to make it a mandatory action that must precede any
final determination of invalidity. See DeliverMed
Holdings, LLC v. Schaltenbrand, 734 F.3d 616, 624
(7th Cir. 2013) (“On remand, if Defendants desire to
pursue the declaratory judgment action further, the
district court must ask the Register whether it would
have refused DeliverMed’s application had it been
aware that DeliverMed had no written ownership
transfer agreement at the time of its application.”).
District courts have reached the same result. See, e.g.,
Roberts v. Gordy, 181 F. Supp. 3d 997, 1008 (S.D. Fla.
2016) (“When there is a question regarding the
accuracy of the information contained on a registration,
the Court’s referral of the matter to the Register of
Copyrights under § 411(b)(2) is mandatory.”); Schenck
v. Orosz, 105 F. Supp. 3d 812, 818 (M.D. Tenn. 2015)
(“By its terms, § 411(b)(2) requires the court to seek an
advisory opinion from the Register in any case that
‘alleges’ inaccurate information under § 411(b) (1) that,
if known to the Register, would have caused the
Register to refuse registration.”); Olem Shoe Corp. v.
Wash. Shoe Co., No. 1:09-cv-23494, 2010 WL 3505100,
at *2 (S.D. Fla. Sept. 3, 2010) (“[T]he statutory
language—‘shall request’—is mandatory.”). The Ninth
Circuit has not addressed this issue.

App. 139
Although the statute states that the advice of the
Register of Copyright should be sought when
inaccurate information is “alleged,” both the Seventh
Circuit and the Register of Copyrights have suggested
that the Register’s advice can be sought after
determining whether the other requirements of the
statute as to invalidation have been met. See
DeliverMed Holdings, 734 F.3d at 624 (“Instead, courts
can demand that the party seeking invalidation first
establish that the other preconditions to invalidity are
satisfied before obtaining the Register’s advice on
materiality.”); Response of the Register of Copyrights
to Request Pursuant to 17 U.S.C. § 411(b)(2) at 11,
Olem Shoe, No. 1:09-cv-23494, Dkt. 209 (“the Register
observes that the statute says nothing about the timing
of the [§411(b)(2)] request. The Register suggests that,
at a minimum, the court retains the power to delay the
request until a factual record has been developed . . . .
The Court could, for example, entertain a motion for
partial summary judgment prior to referring certain
questions to the Register.”). “[A] litigant should
demonstrate that (1) the registration application
included inaccurate information; and (2) the registrant
knowingly included the inaccuracy in his submission to
the Copyright Office. 17 U.S.C. § 411(b)(1)(A). Once
these requirements are met, a court may question the
Register as to whether the inaccuracy would have
resulted in the application’s refusal.” DeliverMed
Holdings, 734 F.3d at 625.
Further, it has been held that “nothing in § 411(b)(2)
prevents courts from imposing a deadline by which the
Copyright Office must provide its response to the
Court’s request.” Palmer/Kane LLC v. Rosen Book

App. 140
Works LLC, 188 F. Supp. 3d 347, 349 (S.D.N.Y. 2016);
see also, Olem Shoe Corp., No. 1:09-cv-23494, Dkt. 168;
DeliverMed Holdings, LLC v. Schaltenbrand, No. 3:10cv-00684, Dkt. 332. “Nor does § 411(b)(2) require courts
to stay proceedings while a request for an advisory
opinion is pending.” Palmer/Kane LLC, 188 F. Supp.
3d at 349.
Based on the statute and its application, a request to
the Register of Copyright is appropriate and required
in this action. It must also precede a determination
whether the Copyright Office would have refused
registration of the copyright at issue in this action.
Therefore, a request in the form set forth in Dkt. 116,
will be sent to the Register of Copyright. As stated in
that Order, the following inquiry will be submitted:
Would the Register of Copyrights have rejected
Plaintiff’s Registration No. VAu 1-151-509 for 2dimensional artwork (“Grp.029-Spring/Summer
2014,” filed October 24, 2013) with respect to
Design 1461? Thus, would it have done so if, at
the time of the application, the Register of
Copyrights had known that, although Plaintiff
had characterized the work as an unpublished
collection that included the 1461 Design,
Plaintiff previously had published the 1461
Design when it sold to its customers fabric
samples that used the 1461 Design, without
limiting further distribution or sale by those
customers?

App. 141
IV. Conclusion
For the reasons stated in this Order, a final ruling on
the Motions is DEFERRED pending the receipt of the
response by the Register of Copyright.
IT IS SO ORDERED.
__________ : __________
Initials of Preparer ak

App. 142

APPENDIX I
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-55818
D.C. No. 2:16-cv-00339-JAK-FFM
Central District of California, Los Angeles
[Filed July 30, 2019]
___________________________________
GOLD VALUE INTERNATIONAL
)
TEXTILE, INC., DBA Fiesta Fabric, )
a California Corporation,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
SANCTUARY CLOTHING, LLC, a
)
California Limited Liability
)
Company; AMAZON.COM, INC.,
)
a Washington Corporation; MACY’S, )
INC., an Ohio Corporation;
)
NORDSTROM, INC., a Washington )
Corporation; BLOOMINGDALES,
)
INC., a New York Corporation;
)
DILLARDS, INC., an Arkansas
)
Corporation; ZAPPOS IP, INC.,
)
a Nevada Corporation; DOES, 1-10, )
)
Defendants-Appellees.
)
___________________________________ )

App. 143
ORDER
Before: O’SCANNLAIN and IKUTA, Circuit Judges,
and STEEH,* District Judge.
The panel has voted unanimously to deny the
petition for panel rehearing. The full court has been
advised of the petition for rehearing en banc, and no
judge has requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35.
The petition for panel rehearing and rehearing en
banc is DENIED.

*

The Honorable George Caram Steeh III, United States District
Judge for the Eastern District of Michigan, sitting by designation.

App. 144

APPENDIX J
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-55818
D.C. No. 2:16-cv-00339-JAK-FFM
U.S. District Court for Central
California, Los Angeles
[Filed August 7, 2019]
___________________________________
GOLD VALUE INTERNATIONAL
)
TEXTILE, INC., a California
)
Corporation, DBA Fiesta Fabric,
)
)
Plaintiff - Appellant,
)
)
v.
)
)
SANCTUARY CLOTHING, LLC, a
)
California Limited Liability
)
Company; et al.,
)
)
Defendants - Appellees.
)
___________________________________ )
MANDATE
The judgment of this Court, entered June 04, 2019,
takes effect this date.

App. 145
This constitutes the formal mandate of this Court
issued pursuant to Rule 41(a) of the Federal Rules of
Appellate Procedure.
Costs are taxed against the appellant in the amount
of $284.70.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Rhonda Roberts
Deputy Clerk
Ninth Circuit Rule 27-7

